<html>
<title> - IRAN NUCLEAR AGREEMENT: THE ADMINISTRATION'S CASE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                        IRAN NUCLEAR AGREEMENT: 
                       THE ADMINISTRATION'S CASE

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 28, 2015

                               __________

                           Serial No. 114-93

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 _________
                      
                      
                      
                      U.S. GOVERNMENT PUBLISHING OFFICE
95-693PDF                 WASHINGTON : 2015                      
                      
_______________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5e392e311e3d2b2d2a363b322e703d313370">[email&#160;protected]</a>  
                     
                      
                      
                      
                      
                      
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York<greek-l>
TOM EMMER, MinnesotaUntil 5/18/
    15 deg.
DANIEL DONOVAN, New York<greek-l>As 
    of 5/19/15 deg.

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                             
                             C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable John Kerry, Secretary of State, U.S. Department of 
  State..........................................................     4
The Honorable Ernest Moniz, Secretary of Energy, U.S. Department 
  of Energy......................................................    12
The Honorable Jacob Lew, Secretary of the Treasury, U.S. 
  Department of the Treasury.....................................    18

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable John Kerry: Prepared statement.....................     9
The Honorable Ernest Moniz: Prepared statement...................    14
The Honorable Jacob Lew: Prepared statement......................    21

                                APPENDIX

Hearing notice...................................................    90
Hearing minutes..................................................    91
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    93
Written responses from the Honorable John Kerry to questions 
  submitted for the record by:
  The Honorable Edward R. Royce, a Representative in Congress 
    from the State of California, and chairman, Committee on 
    Foreign Affairs..............................................    95
  The Honorable Eliot L. Engel, a Representative in Congress from 
    the State of New York........................................   102
  The Honorable Ileana Ros-Lehtinen, a Representative in Congress 
    from the State of Florida....................................   104
  The Honorable Ted Poe, a Representative in Congress from the 
    State of Texas...............................................   109
Questions submitted for the record to the Honorable Ernest Moniz 
  by:
  The Honorable Ileana Ros-Lehtinen..............................   111
  The Honorable Joe Wilson.......................................   112

 
                        IRAN NUCLEAR AGREEMENT: 
                       THE ADMINISTRATION'S CASE

                              ----------                              


                         TUESDAY, JULY 28, 2015

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:08 a.m., in 
room 2172, Rayburn House Office Building, Hon. Ed Royce 
(chairman of the committee) presiding.
    Chairman Royce. This hearing will come to order.
    Today, we continue our review of the nuclear agreement the 
Obama administration reached with Iran. This is a critical 
hearing on one of the most sweeping diplomatic initiatives in 
years, some say decades, demanding the committee's thorough 
review.
    The global threat from Iran has been a focus of this 
committee for as long as I can remember. Last Congress, we 
passed comprehensive sanctions legislation by a vote of 400 to 
20. It would have given Iran's Supreme Leader a choice between 
its nuclear program or economic collapse, but the 
administration was successful in blocking that legislation.
    So, instead of us considering a verifiable, enforceable, 
and accountable agreement, we are being asked to consider an 
agreement that gives Iran permanent sanctions relief for 
temporary nuclear restrictions. Should Iran be given this 
special deal?
    In September, committee members will face the important 
decision of approving or disapproving this agreement. We will 
have that vote only because of the Iran Nuclear Agreement 
Review Act, passed in May, which the administration did not 
want. To be frank, the administration's preference has been to 
sideline America's representatives. So I was not entirely 
surprised when the administration went against bipartisan calls 
and gave Russia and China and others at the U.N. Security 
Council a vote on this agreement before the American public. 
That is backwards--and wrong.
    We have heard serious concerns from experts about the 
substance of this agreement. First, Iran is not required to 
dismantle key bomb-making technology. Does that make the world 
safer? Second, it is permitted a vast enrichment capacity, 
reversing decades of bipartisan nonproliferation policy. Does 
that make the region more stable? And, third, Iran is allowed 
to continue its research and development to gain an industrial-
scale nuclear program once this agreement begins to expire in 
as little as 10 years. Ten years. That is a flash in time, and 
then Iranian obligations start unwinding. Does that make the 
world more secure?
    We appreciate President Obama's efforts to secure the most 
intrusive inspections in history, but it came up short. 
Instead, there is ``managed access,'' with Iran, Russia, and 
China having a say in where international inspectors can and 
can't go. The deal's 24-day process is a far cry from 
``anywhere, anytime''--and this provision expires too. While 
the administration has professed absolute knowledge about 
Iran's program, it is a fact that we have been surprised by 
most every major nuclear development in Iran's history. And 
Iran has cheated on every agreement they have signed. So I ask, 
Mr. Secretary, has Iran earned the right to be trusted?
    This deal guts the sanctions web that is putting intense 
pressure on Iran. Virtually all economic, financial, and energy 
sanctions disappear. And where does all that money go? To the 
largest terror network on Earth. Gone are the sanctions on 
Iran's nuclear program, but also on the bad banks that have 
supported Iran's terrorism and ballistic missile development. 
And, to our dismay, Iran won a late concession to remove 
international restrictions on its ballistic missile program and 
conventional arms, imperiling the security of the region and 
our homeland.
    If this agreement goes through, Iran gets a cash bonanza, a 
boost to its international standing, and a lighted path toward 
nuclear weapons. With sweeping sanctions relief, we have 
lessened our ability to challenge Iran's conduct across the 
board. As Iran grows stronger, we will be weaker to respond.
    Yes, the U.S. would roil the diplomatic waters if Congress 
rejects this deal, but the U.S. still wields the most powerful 
economic sanctions in the world--sanctions Iran desperately 
needs relief from--sanctions that would continue to deter 
countries and companies from investing in Iran. I understand 
the effort the administration has put into this agreement, but 
these are about as high stakes as it gets. So the committee 
must ask if we made the most of our pretty strong hand, or are 
we willing to bet, as the administration has, that this is the 
beginning of a changed Iran?
    These are complex issues, and I look forward to what should 
be an extremely informative hearing.
    And I now turn to the ranking member.
    Mr. Engel. Mr. Chairman, thank you for convening this 
hearing.
    Secretary Kerry, Secretary Lew, Secretary Moniz, welcome to 
the Foreign Affairs Committee. Thank you all for your dedicated 
service. No matter what side of the issue anybody is on, I 
don't think anyone here doubts your commitment to the United 
States and your good intentions on this deal. Thank you for the 
time you have taken over the last week to engage with Members 
of Congress on the proposed deal, and thank you for your 
testimony today.
    Congress gave itself 60 days to renew this deal, and I 
sincerely hope my colleagues take full advantage of this time 
to study this agreement, to ask questions, and to make an 
informed decision when the time comes. We have had many months 
and many hearings to discuss the different aspects of a nuclear 
agreement with Iran, but, at this point, we no longer are 
dealing with hypotheticals. We have a specific deal on the 
table, and we have to decide if that deal advances the national 
security interests of the United States and our allies.
    To answer that question, to be fair, we also need to ask 
ourselves what is the alternative. Absent this deal, would the 
international sanctions regime and the P5+1 coalition hold 
together? If this deal fails, how would we get the Iranians 
back to the table? Would new sanctions have to be coupled with 
military action?
    As I continue to review the deal, though, there are a 
number of issues that I find troublesome. I hope the three of 
you will address them in your testimony and as you answer the 
committee's questions.
    First, I continue to have concerns that international 
inspectors will not have immediate access to undeclared sites. 
Under the agreement, Iran has 14 days to grant access. If Iran 
refuses access after that time, then members of the Joint 
Commission could take another week to resolve the IAEA's 
concerns. After that, Iran has 3 more days to provide access.
    So we are already nearly a month after inspectors first 
wanted access, but if Iran continues to say no, another month 
could go by while this dispute is resolved. That potential 
length of time gives me pause. I would like to know how we can 
be sure Iran cannot use these delays to sanitize sites and get 
away with breaking the rules.
    Already, we are seeing Iran's leadership declare that 
military sites will be off limits to inspectors. If this is 
Iran's version of transparency during the implementation of the 
agreement, we are getting off to a bad start.
    I am also troubled by reports about how the arrangement 
reached between Iran and the IAEA on how Parchin will be 
inspected.
    Secondly, I have concerns about the sunset of the 
international sanctions on ballistic missiles and advanced 
conventional weapons. Now, my understanding was these weren't 
on the table during the talks. So I was disappointed to learn 
that after a maximum of 5 and 8 years, respectively, they will 
be terminated. I would like to understand why we allowed this 
to happen and what we can do to ensure that this doesn't make a 
terrible situation in the region get even worse.
    I am also concerned about what Iran's leaders will do when 
sanctions are phased out and new resources come flowing in. We 
are talking about tens of billions of dollars. Of course, I 
would like to see Iran's leaders use this money to help the 
Iranian people, but, even with tough international sanctions in 
place, Iran has bolstered Hezbollah, Shia militias, Hamas, and 
the Assad regime. If this deal goes through, how would you 
propose to keep this newfound wealth out of the hands of 
terrorists and tyrants?
    Next, while I am glad that Iran will be limited in its 
development of advanced centrifuges for 8 years, I worry what 
happens down the road. After the research and development ban 
expires, Iran could quickly move toward the next stage of its 
enrichment activities. I would like to know what other 
provisions in the deal, if any, will mitigate this risk.
    Finally, I have a fundamental concern that 15 years from 
now Iran will essentially be off the hook. If they choose, 
Iran's leaders could produce weapons-grade highly enriched 
uranium without any limitation. They could use advanced 
centrifuges to speed this progress even further. This amounts 
to Iran being a legitimized nuclear threshold state in the year 
2030. My big question is this: What happens then? Are we back 
to square one? Is this deal just pushing the pause button for 
15 years?
    I must also say that I have trepidation; barely a week 
after the Iranians sign the deal with us, there was the Supreme 
Leader, the Ayatollah, chanting, ``Death to America, death to 
Israel.'' You would think that after the agreement was signed 
with us there might be a modicum of goodwill, that perhaps they 
would keep quiet for a week or 2 or a month, but it went back 
to business as usual. How can we trust Iran when this type of 
thing happens? It is very disconcerting.
    So I am looking forward to hearing from our distinguished 
witnesses on these issues. Again, I thank you for your service 
and hard work.
    And I yield back to the chairman.
    Chairman Royce. Thank you, Mr. Engel.
    This morning, we are pleased to be joined by John Kerry, 
the Secretary of State; Ernie Moniz, the Secretary of Energy; 
and Jack Lew, the Secretary of the Treasury.
    Prior to his appointment, Secretary Kerry served as a 
United States Senator from Massachusetts for 28 years. Before 
being appointed Secretary of Energy, Dr. Moniz was professor of 
physics and engineering at MIT, where he was a faculty member 
since 1973. From Director of the Office of Management and 
Budget to White House Chief of Staff, Secretary Lew now serves 
as the 76th Secretary of the Treasury.
    Gentlemen, welcome.
    And, without objection, the witnesses' full prepared 
statements will be made part of the record.
    Members here will have 5 days to submit statements and 
questions and extraneous materials for the record.
    And, before turning to the testimony, we have most of the 
members present here. I know we all recognize the gravity of 
this issue. We want everyone to have a chance to question the 
Secretaries. To accomplish that, I would ask everyone, members 
and witnesses, respect the time limit. And that means leaving 
an adequate amount of time for witnesses to answer your 
questions. And nothing requires full use of your time.
    So we will begin with a summary of Secretary Kerry's 
testimony.
    Mr. Secretary?

STATEMENT OF THE HONORABLE JOHN KERRY, SECRETARY OF STATE, U.S. 
                      DEPARTMENT OF STATE

    Secretary Kerry. Well, Chairman Royce, Ranking Member 
Engel, and all the members of the committee, thank you very, 
very much.
    We genuinely appreciate the opportunity to be here to, 
frankly, clear up a lot of misinterpretation, some element of 
public distortion that exists out there. I know there is one ad 
I have seen on TV, has at least three or four major absolutely, 
totally incorrect facts on which it bases the ad. And, with all 
respect to both the chairman and the ranking member, there are 
conclusions that have been drawn that just don't, in fact, 
match with the reality of what this deal sets forth. And we 
happily--happily--look forward to clarifying that during the 
course of this hearing. That is what it is all about. And we 
welcome the opportunity.
    We are convinced that the plan that we have developed with 
five other nations accomplishes the task that President Obama 
set out, which is to close off the four pathways to a bomb. And 
I think, as you listen to Ernie Moniz, particularly on the 
technical components, and see the whole deal, I really believe 
that that is a conclusion that everybody can come to. I am not 
saying they will, but can.
    I am joined by, obviously, two Cabinet Secretaries. Both 
Ernie and Jack were absolutely critical to our ability to do 
this. The Treasury Department's knowledge of the sanctions and 
application of the sanctions has been exemplary, and they 
helped us understand the implications of all of these 
sanctions.
    And, as Jack will let you know, we are not talking about 
$150 billion. We are not talking about $100 billion. We are 
actually talking about $55 billion that will go to Iran. And we 
will go into that later.
    But from the day that our negotiations began, Mr. Chairman, 
we were crystal-clear that we would not accept anything less 
than a good deal, one that would shut off all of those pathways 
toward fissile material for a nuclear weapon. And after 18 
months of very intensive talks, the facts are pretty clear that 
the plan announced this month by six nations, in fact, 
accomplishes that.
    I might remind everybody, all of those other nations have 
nuclear power or nuclear weapons, and all of them are extremely 
knowledgeable in this challenge of proliferation.
    So, under the terms of this agreement, Iran has agreed to 
remove 98 percent of its stockpile of enriched uranium; 
dismantle two-thirds of its installed centrifuges; and destroy, 
by filling it with concrete, the existing core of its heavy-
water plutonium reactor. Iran has agreed to refrain from 
producing or acquiring highly enriched uranium and weapons-
grade plutonium for nuclear weapons forever.
    Now, how do we enforce or verify so that that is more than 
words? And, particularly, to speak to the ranking member's 
question, what happens after 15 years, what happens is: 
Forever, we have an extremely rigorous inspection/verification 
regime, because Iran has agreed to accept and will ratify prior 
to the conclusion of the agreement--and, if they don't, it is a 
material breach of the agreement--to ratify the additional 
protocol, which requires extensive access as well as 
significant additional transparency measures, including cradle-
to-grave accountability for the country's uranium, from mining 
to milling, through the centrifuge production, to the waste, 
for 25 years.
    Bottom line, if Iran fails to comply with the terms of our 
agreement, our intel community, our Energy Department, which is 
responsible for nuclear weaponry, are absolutely clear that we 
will quickly know it, and we will be able to respond 
accordingly with every option available to us today.
    And when it comes to verification and monitoring, there is 
absolutely no sunset in this agreement--not in 10 years, not in 
15 years, not in 20 years, not in 25 years. No sunset ever.
    Now, remember, 2 years ago, when we began these 
negotiations--and a lot of people are kind of forgetting 
conveniently, sort of, where we are today. People are sitting 
there saying, oh, my gosh, in 15 years, this is going to 
happen, or whatever; Iran is going to have the ability to be, 
you know, a capable nuclear power.
    Folks, when we began our negotiations, we faced an Iran 
that was already enriching uranium up to 20 percent. They 
already had a facility, built in secret, underground in a 
mountain, that was rapidly stockpiling enriched uranium. When 
we began negotiations, they had enough enriched uranium for 10 
to 12 bombs already. Already, they had installed as many as 
19,000 nuclear centrifuges. And they had nearly finished 
building a heavy-water reactor that could produce weapons-grade 
plutonium as a rate of one to two bombs per year.
    Experts put Iran's breakout time, when we began--which, 
remember, is not the old breakout time that we used to refer to 
in the context of arms control, which is the time to go have a 
weapon and be able to deploy it. Breakout time, as we have 
applied it, is extraordinarily conservative. It is the time it 
takes to have enough fissile material for one bomb, but for one 
potential bomb. It is not the amount of time to the bomb.
    So, when we say they will have 1 year to a certain amount 
of fissile material, they still have to go design the bomb, 
test, do a whole bunch of other things. And I think you would 
agree, no nation is going to consider itself nuclear-capable 
with one bomb.
    So, if this deal is rejected, folks--by the way, when we 
started negotiations, the existing breakout time was about 2 
months. We are going to take it to 1 year, and then it tails 
down slowly. And I will explain how that provides us with 
guarantees.
    But if this deal is rejected, we immediately go back to the 
reality I just described without any viable alternative, except 
that the unified diplomatic support that produced this 
agreement will disappear overnight.
    Let me underscore: The alternative to the deal that we have 
reached is not some kind of unicorn fantasy that contemplate's 
Iran's complete capitulation. I have heard people talk about 
dismantling their program. That didn't happen under President 
Bush, when they had a policy of no enrichment and they had 163 
centrifuges. They went up to the 19,000. Our intelligence 
community confirms--and I ask you all to sit with them. They 
will tell you that is not going to happen.
    So, in the real world, we have two options. Either we move 
ahead with this agreement to ensure that Iran's nuclear program 
is limited, rigorously scrutinized, and wholly peaceful; or we 
have no agreement at all--no inspections, no restraints, no 
sanctions, no knowledge of what they are doing--and they start 
to enrich.
    Now, to be clear, if Congress rejects what was agreed to in 
Vienna, you will not only be rejecting every one of the 
restrictions that we put in place--and, by the way, nobody is 
counting the 2 years that Iran has already complied with the 
Interim Agreement--and, by the way, complied completely and 
totally, so that we have already rolled their program back. We 
have reduced their 20-percent enriched uranium to zero. That 
has already been accomplished.
    But if this is rejected, we go back to their ability to 
move down that road. You will not only be giving Iran a free 
pass to double the pace of its uranium enrichment, to build a 
heavy-water reactor, to install new and more efficient 
centrifuges, but they will do it all without the unprecedented 
inspection and transparency measures that we have secured. 
Everything that we have tried to prevent will now happen.
    Now, what is worse? If we walk away, we walk away alone. 
Our partners are not going to be with us. Instead, they will 
walk away from the tough multilateral sanctions that brought 
Iran to the negotiating table in the first place, and we will 
have squandered the best chance that we have to solve this 
problem through peaceful means.
    Now, make no mistake: From the very first day in office, 
President Obama has made it clear that he will never accept a 
nuclear-armed Iran. And he is the only President who has asked 
for and commissioned the design of a weapon that has the 
ability to take out the facilities and who has actually 
deployed that weapon.
    But the fact is, Iran has already mastered the fuel cycle. 
They have mastered the ability to produce significant 
stockpiles of fissile material. And you have to have that to 
make a nuclear weapon. You can't bomb away that knowledge any 
more than you can sanction it away.
    Now, I was chair of the Senate Foreign Relations Committee 
when a lot of us joined together and put most of the Iran 
sanctions in place. And I know well, as you do, that the whole 
point was to bring Iran to the negotiating table. Even the 
toughest sanctions, previously, did not stop Iran's program 
from growing from, what, 163 to 300 to 5,000 to more than 
19,000 now, and it didn't stop Iran from accumulating a 
stockpile of enriched uranium.
    Now, sanctions are not an end to themselves. They are a 
diplomatic tool that has enabled us to actually do what 
sanctions could not without the negotiation; and that is to 
rein in a nuclear program that was headed in a very dangerous 
direction and to put limits on it, to shine a spotlight on it, 
to watch it like no other nuclear program has ever been watched 
before. We have secured the ability to do things that exist in 
no other agreement.
    Now, to those who are thinking about opposing this deal 
because of what might happen in year 15 or year 20, I ask you 
to simply focus on this: If you walk away, year 15 or 20 starts 
tomorrow and without any of the long-term access and 
verification safeguards that we have put in place.
    What is the alternative? What are you going to do when Iran 
does start to enrich, which they will feel they have a right to 
if we walk away from the deal? What are you going to do when 
the sanctions aren't in place and can't be reconstituted 
because we walked away from a deal that our five fellow nations 
accepted?
    Now, I have heard critics suggest that the Vienna agreement 
would somehow legitimize Iran's nuclear program. That is 
nonsense. Under the agreement, Iran's leaders are permanently 
barred from pursuing a nuclear weapon, and there are permanent 
restraints and access provisions and inspection provisions to 
guarantee that.
    And I underscore: If they try to evade that obligation, we 
will know it, because a civil nuclear program requires full 
access 24/7, requires full documentation, and we will have the 
ability to track that as no other program before. The IAEA will 
be continuously monitoring their centrifuge production, so 
those centrifuges cannot be diverted to a covert facility. For 
the next 25 years, the IAEA will be continuously monitoring 
uranium from the point that it is produced all the way through 
production so that it cannot be diverted to another facility.
    For the life of this agreement, however long Iran stays in 
the NPT and is living up to its obligations, they must live up 
to the Additional Protocol. And that Additional Protocol, as we 
can get into today, greatly expands the IAEA's capacity to have 
accountability.
    So this agreement--and I will close by saying this 
agreement gives us a far stronger detection capability, more 
time to respond to any attempt to break out toward a bomb, and 
much more international support in stopping it than we would 
have without the deal.
    If we walk away from this deal and then we decide to use 
military force, we are not going to have the United Nations or 
the other five nations that negotiated with us, because they 
will feel we walked away. And make no mistake, President Obama 
is committed to staying with the policy of stopping this bomb.
    So, in the 28 years, a little more, that I was privileged 
to represent Massachusetts, I had a 100-percent voting record 
on every issue for Israel. I first traveled there in 1986; I 
have great friends there, members of my family, others who care 
enormously about Israel. I understand the fear. I understand 
the concerns that our friends in Israel have. But we believe 
that what we have laid out here is a way of making Israel and 
the region, in fact, safer.
    And I emphasize, we do not lose any option in 15 years, 10 
years, 20 years, 5 years that we have available to us today.
    We will push back against Iran's other activities. We have 
laid out a very detailed policy for working with the Gulf 
states and others, and we look forward to working with Israel 
in the effort to do that. Our current security cooperation with 
Israel is at an unprecedented level, and it is why we have a 
robust military presence in the region, and it is why we are 
working so closely with the Gulf states.
    So, Mr. Chairman, we will continue to push back against 
Iran on every front available, but the fact is, it is a lot 
easier to push back against an Iran that doesn't have a nuclear 
weapon rather than one that does. That has been our principal 
strategic objective: Deal with a nuclear weapon, and then you 
have an easier time dealing with the other issues too.
    The outcome here is critical. We believe this deal makes 
our country and our allies safer. It will guarantee that Iran's 
program is under intense scrutiny. It will ensure that the 
world community is unified in backing this up. And, in the end, 
it will guarantee Iran's program has to be peaceful and, 
therefore, is a good deal for the world, a good deal for 
America, a good deal for our allies and our friends, and we 
believe it richly deserves your support.
    [The prepared statement of Secretary Kerry follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
        
                              ----------                              

    Chairman Royce. Dr. Moniz?
    Thank you, Secretary Kerry.
    Secretary Kerry has been very thorough. Dr. Moniz, if you 
could be brief, and we will get back on time. And we will 
recognize you at this point.

 STATEMENT OF THE HONORABLE ERNEST MONIZ, SECRETARY OF ENERGY, 
                   U.S. DEPARTMENT OF ENERGY

    Secretary Moniz. Thank you, Chairman Royce, Ranking Member 
Engel, and members of the committee. Thanks for the opportunity 
to discuss the nuclear dimensions of the Iran agreement, JCPOA, 
reached between the E3/EU+3.
    The JCPOA prevents Iran from getting a nuclear weapon, 
provides strong verification measures to give us time to 
respond if they violate its terms, and takes none of our 
options off the table.
    I want to stress that I was backed up in the negotiations 
by the nuclear competency built up over decades at DOE and 
supported by this Congress. America's leading nuclear experts 
at DOE labs and sites were engaged throughout the negotiations. 
Nine labs and sites in seven States took part in supporting our 
negotiating position. These experts, again, were essential, 
and, as a result of their work, I am very confident that the 
technical underpinnings of this deal are solid and that the 
Department of Energy stands ready to assist in its 
implementation.
    The JCPOA will extend, for at least 10 years, the time it 
would take for Iran to produce enough fissile material for a 
first explosive device to at least 1 year. That is the fissile 
material being reduced from 12,000 to 300 kilograms; stringent 
constraints on Iran's enriched uranium stockpile, as I said, 
for 15 years; strong containment and surveillance measures on 
all centrifuge manufacturing and the uranium supply chain for 
20 and 25 years.
    Verification that Iran is following the agreement is 
forever stronger than it would be without the agreement. The 
Arak reactor will be redesigned so it is not a plutonium 
factory; and, furthermore, its plutonium-bearing irradiated 
fuel sent out of the country for the entire life of the 
reactor.
    Thus, the Lausanne parameters are maintained, and all paths 
to a bomb's worth of nuclear weapons material are addressed. In 
fact, Lausanne is materially strengthened in the P5+1 Vienna 
agreement.
    One important area, and only one, of that strengthening is 
that Iran will not engage in several activities that could 
contribute to the development of a nuclear explosive device, 
including explosively driven neutron sources and multiple-point 
detonation systems. These commitments are indefinite. In 
addition, Iran will not pursue plutonium or uranium or uranium 
alloy metallurgy for 15 years.
    Weaponization requirements, especially for missile launch, 
add to the breakout timeline.
    Mr. Chairman, I cannot agree that the agreement does not 
dismantle Iran's technology efforts of relevance to nuclear 
weapons. In fact, every aspect is rolled back.
    Returning to verification, the IAEA will be permitted to 
use advanced technologies such as enrichment monitoring and 
electronic seals--technologies that DOE National Laboratories 
have, in fact, developed.
    Much has been made about a 24-day process for ensuring IAEA 
inspectors getting access to undeclared sites. In fact, the 
IAEA can request access to any suspicious location with 24 
hours' notice under the Additional Protocol, which Iran will 
implement under this deal. The deal does not change that 
baseline.
    The JCPOA goes beyond that baseline, recognizing that 
disputes could arise regarding IAEA access, and provides a 
crucial new tool for resolving such disputes within a 
reasonably short period of time. So the IAEA gets the access it 
needs within 24 days. Again, this is the first time that there 
actually is a cutoff in time.
    But, of course, most importantly, to complement that, 
environmental sampling provides extremely sensitive 
measurements of microscopic traces of nuclear materials even 
after attempts are made to remove the material. And the 2003 
example found undeclared nuclear material even after Iran 
delayed access for 6 months.
    The combination of the agreements, technical measures, and 
the coherence of the P5+1 dramatically increase the risk to 
Iran for any attempt to move to nuclear weapons capability. For 
example, any attempt to enrich to HEU, to high-enriched 
uranium, at any time must earn a sharp response by all 
necessary means. In fact, a steep response must be clear from 
the start for any violation of the agreement.
    Blocking the covert path, I should emphasize, will always 
rely, of course, on the work of the American intelligence 
community and those of our friends and allies.
    The deal is based on science and analysis because of its 
deep grounding in exhaustive technical analysis, carried out 
largely, again, by our highly capable DOE scientists and 
engineers.
    I am confident that this is a good deal for America, for 
our allies, and for our global security. This is nicely 
summarized in the recent letter to congressional leadership by 
seven former U.S. Ambassadors to Israel and Under Secretaries 
of State--individuals dedicated to strengthening the bonds 
between Israel and the United States.
    And I quote, briefly,

        ``This landmark agreement removed a threat that a 
        nuclear-armed Iran would pose to the region and to 
        Israel specifically. We see no fatal flaws that should 
        call for the rejection of this agreement and have not 
        heard any viable alternatives from those who oppose the 
        implementation of the JCPOA.''

    As has been stated by many thoughtful analysts, the big 
gamble would come in turning away from the agreement rather 
than in implementing the agreement.
    So thank you for this opportunity to be here. I look 
forward to our discussion.
    [The prepared statement of Secretary Moniz follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    
                              ----------                              

    Chairman Royce. Thank you.
    We go to Secretary of the Treasury, Secretary Lew.

    STATEMENT OF THE HONORABLE JACOB LEW, SECRETARY OF THE 
           TREASURY, U.S. DEPARTMENT OF THE TREASURY

    Secretary Lew. Thank you, Mr. Chairman, Ranking Member 
Engel, members of the committee, for the opportunity to be 
here. This is an important issue, one where I think the full 
discussion that we are having will make it clear that this will 
strengthen our national security and that of our allies.
    The powerful array of U.S. and international sanctions on 
Iran constitutes the most effective sanctions regime in 
history. These measures have clearly demonstrated to Iran's 
leaders the costs of flouting international law, cutting them 
off from world markets and crippling their economy. Today, 
Iran's economy is about 20 percent smaller than it would have 
been had it remained on its pre-2012 growth path.
    The United States Government stood at the forefront of this 
effort across two administrations and with the bipartisan 
support of Congress. Together, we established a web of far-
reaching U.S. and international sanctions that ultimately 
persuaded Iran's leadership, after years of intransigence, to 
come to the table prepared to roll back its international 
program.
    International consensus and cooperation to achieve this 
pressure was vital. The world's major powers have been and 
remain united in preventing a nuclear-armed Iran. That unity of 
purpose produced four tough U.N. Security Council resolutions 
and national-level sanctions in many countries and secured 
adherence to U.S. sanctions by countries around the world.
    The point of these sanctions was always to change Iran's 
nuclear behavior, while holding out the prospect of relief if 
the world's concerns were addressed. Accordingly, once the IAEA 
verifies that Iran has completed key steps to roll back its 
nuclear program and extend its breakout time to at least 1 
year, phased sanctions relief will come into effect.
    There is no signing bonus in this agreement. To be clear, 
there will be no immediate changes to U.N., EU, or U.S. 
sanctions. Only if Iran fulfills the necessary nuclear 
conditions will the U.S. begin suspending nuclear-related 
secondary sanctions on a phased-in basis--sanctions that target 
third-country parties doing business with Iran.
    Of course, we must guard against the possibility that Iran 
does not uphold its side of the deal. That is why, if Iran 
violates its commitments once we have suspended sanctions, we 
will be able to promptly snap back both U.S. and U.N. 
sanctions. And since preventing the U.N. snapback requires an 
affirmative vote from the U.N. Security Council, the United 
States has the ability to effectively force the reimposition of 
those sanctions.
    Even as we phase in nuclear-related sanctions relief, we 
will maintain significant sanctions that fall outside the scope 
of the deal, including our primary U.S. trade embargo and other 
measures. With very little exception, Iran will continue to be 
denied access to the world's largest market, and we will 
maintain powerful sanctions targeting Iran's support for 
terrorist groups such as Hezbollah, its destabilizing role in 
Yemen, its backing of the Assad regime, its missile program, 
and its human rights abuses at home. Just this week, Treasury 
sanctioned several Hezbollah leaders, building on designations 
last month targeting the group's front companies and 
facilitators. And we will not be relieving sanctions on Iran's 
Revolutionary Guard Corps, its Quds Force, any of their 
subsidiaries, or their senior officials.
    Some argue the sanctions relief is premature until Iran 
ceases these activities and that funds Iran recovers could be 
diverted for malign purposes, and I understand that concern. 
But Iran's ties to terrorist groups are exactly why we must 
keep it from ever obtaining a nuclear weapon. The combination 
of those two threats would raise a nightmare scenario. A 
nuclear-armed Iran would be far more menacing.
    If we cannot solve both concerns at once, we need to 
address them in turn. JCPOA will address the nuclear danger, 
freeing us and our allies to check Iran's regional activities 
more aggressively. By contrast, walking away from this deal 
would leave the world's leading sponsor of terrorism with a 
short and decreasing nuclear breakout time.
    We must also be measured and realistic in understanding 
what sanctions relief will really mean to Iran. Iran's $100 
billion in restricted reserves, which many fear will be 
directed for nefarious purposes, constitute the country's long-
term savings, not its annual budget. We estimate that after 
sanctions relief Iran will only be able to freely access around 
half of these resources, or just over $50 billion. That is 
because over $20 billion is committed to projects with China, 
where it cannot be spent. And tens of billions in additional 
funds are in nonperforming loans to Iran's energy and banking 
sector.
    As a matter of financial reality, Iran can't simply spend 
the usable resources, as they will likely be needed to meet 
international payment obligations such as financing for imports 
and external debt. Moreover, President Rouhani was elected on a 
platform of economic revitalization and faces a political 
imperative to start meeting those unfulfilled promises. He 
faces over $\1/2\ trillion in pressing investment requirements 
and government obligations. Iran is in a massive economic hole 
from which it will take years to climb out.
    Meanwhile, we will aggressively target any attempts by Iran 
to finance Hezbollah or use funds gained from sanctions relief 
to support militant proxies, including by enhancing our 
cooperation with Israel and our partners in the Gulf.
    Backing away from this deal to escalate the economic 
pressure and try to obtain a broader capitulation from Iran 
would be a mistake. Even if one believed that extending 
sanctions pressure was a better course than resolving the 
threat of Iran's nuclear program, that choice is simply not 
available. Our partners agreed to impose costly sanctions on 
Iran for one reason: To put a stop on its illicit nuclear 
program. If we change our terms now and insist that these 
countries now escalate those sanctions and apply them to all of 
Iran's objectionable activities, they just wouldn't do it. They 
would balk, and we would be left with neither a nuclear deal 
nor effective sanctions.
    So it is unrealistic to think that additional sanctions 
pressure would force Iran to totally capitulate and impractical 
to believe we could marshal a global coalition of partners to 
impose such pressure after turning down a deal our partners 
believe is a good one.
    The Joint Comprehensive Plan of Action is a strong deal. 
With phased relief after Iran fulfills its commitments to roll 
back its nuclear program and a powerful snapback built in if 
later on they break the deal, its terms achieve the objective 
they were meant to achieve: Blocking Iran's paths to a nuclear 
bomb. That is the overriding national security priority, and it 
should not be put at risk, not when the prospect of an 
unconstrained Iranian nuclear program presents such a threat to 
America and the world.
    Thank you again, and we look forward to answering your 
questions.
    [The prepared statement of Secretary Lew follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    
                              ----------                              

    Chairman Royce. Thank you, Secretary Lew.
    To get back to a point that was made, as I read it, the 24-
day suspect site process does expire in 15 years. The IAEA 
Additional Protocol alone wouldn't deter Iran, based on our 
past experience with their noncompliance with the IAEA. So I 
think that point stands.
    The other question I just would like to ask Secretary Kerry 
relates to what the Secretary of Defense said. In his testimony 
about the ``I'' in ``ICBM,'' he said it stands for 
``intercontinental,'' which means going from Iran to the United 
States. Simply, countries develop ICBMs to deliver a nuclear 
warhead. And these will be aimed at us, not at Moscow.
    And at the same time that these missile restrictions are 
coming off, sanctions on the Iranian scientists involved in 
their bomb work are also coming off.
    So how is that making us safer? It seems to me the winner 
here is Russia, which demanded and won on the lifting, on 
Iran's behalf, of these ICBM sanctions. Why did we concede on 
that?
    Secretary Kerry. Well, we didn't concede on that, Mr. 
Chairman.
    In fact, we won a victory because the--we have seven 
nations negotiating. Three of the seven thought that the 
sanctions ought to be lifted immediately--Iran, Russia, and 
China. Four of them--Germany, France, Britain, the United 
States--thought they shouldn't.
    And what we succeeded in doing was keeping both the arms 
embargo and the missile component--the missiles for 8 years, 
the arms for 5 years--notwithstanding the fact that Iran has a 
very legitimate argument, which they were making, that the U.N. 
Resolution 1929, which is what created the sanctions and the 
structure we were negotiating under, said that if Iran comes to 
the table and negotiates all the sanctions would be lifted.
    Now, they didn't just come to the table to negotiate; they 
made a deal. They signed an agreement. They came to an overall 
agreement. So they felt that they were in compliance with the 
U.N. resolution. And we felt, on the other hand, that their 
behavior in the region was such that it would be 
unconscionable, notwithstanding, to lift. So the compromise was 
the 5 and 8.
    But we don't feel we lost anything whatsoever in that, Mr. 
Chairman, for the following reasons: The UNSCR, U.N. Resolution 
1929, is a nuclear resolution. Susan Rice put the--she was then 
at the U.N.--she put the arms piece in at the last minute. It 
was a sort of throw-in at the last moment into this nuclear 
resolution.
    And the nuclear resolution always contemplated that if the 
IAEA came to what is known as its broad conclusion that Iran 
was not engaged in any illicit activities in its declared or 
undeclared activities, then all the sanctions are lifted.
    So, no matter what was going to happen here, we were going 
to lose both the missile and the arms under the U.N. component. 
But here is what we have done in the meantime that we believe 
actually takes care of this issue:
    First of all----
    Chairman Royce. Mr. Secretary, I have followed the 
arguments that you have made about the laws that we have to 
defend against Iran's missile program, and I understand the 
steps that you took here.
    I am just saying, big picture, big picture, when we end up 
with a bottom line where in 8 years they get the missile, it 
doesn't look like a victory to me. It looks like----
    Secretary Kerry. But they don't.
    Chairman Royce. They may not get the missile at the time, 
but they can buy the technology at that time. The embargo is 
lifted at that time.
    Secretary Kerry. No. Actually, they can't, Mr. Chairman, 
because we have, happily--we have several other protocols which 
prevent that from happening. Specifically, the missile control 
technology regime prevents that from taking place. We have an 
Executive order by the President of the United States that, in 
fact, prevents the transfer of----
    Chairman Royce. I would just point out there is a reason 
why Russia pushed it. There is a reason we did not want----
    Secretary Kerry. Because Russia they didn't want the U.N. 
component of this. But they know that we have separate 
capacities and we will apply them.
    Chairman Royce. I would hope that we could strengthen our 
hand in this as we go along, but the bottom line is Iran is 
getting a financial windfall. It increases its support for 
terrorist proxies. They have announced that recently. It 
reintegrates into the global economy. It upgrades its 
conventional weapons. I think it upgrades its ballistic missile 
program in this, over the time of this agreement. It has an 
industrial-size nuclear program in 10 years. And that is the 
timeframe only if they don't cheat.
    So, when I look at this and I see that Iran's neighbors, 
who know it the best, trust it the least, I just ask--we are 
presuming Iran is going to change its behavior----
    Secretary Kerry. No, we are not.
    Chairman Royce [continuing]. And that behavior did not 
change last weekend, when they were chanting, again, ``Death to 
America.''
    Secretary Kerry. Mr. Chairman, please, with all due 
respect, we are not presuming any such thing. There is no 
presumption in here about what Iran will or will not do. There 
is one objective: Make sure they can't get a nuclear weapon. 
And on the back side of that, we have a very robust initiative 
that will push back against Iran's other activities.
    But let me be very specific. Executive----
    Chairman Royce. Well, my time has expired.
    Secretary Kerry [continuing]. Order 12938 authorizes U.S. 
Sanctions on foreign persons that materially contribute to the 
proliferation of missiles, including efforts to manufacture, 
acquire, develop, and transfer them, by any person or foreign 
country of proliferation concern.
    That is just one----
    Chairman Royce. Okay.
    Secretary Kerry [continuing]. Of about four or five----
    Chairman Royce. My time has expired, Mr. Secretary. I am 
going to go to Mr. Engel, but thank you very much.
    Mr. Engel. Thank you, Mr. Chairman.
    And thank all of you for testifying.
    I still want to get back to 15 years, because, frankly, it 
is the thing that disturbs me the most. The truth is that after 
15 years Iran is a nuclear threshold state. They are 
legitimized in this agreement as being a nuclear threshold 
state, which means they can produce weapons-grade highly 
enriched uranium without limitation.
    I know you can make the argument and say, well, they are 
already at that point now. But why would we not try to 
negotiate a deal where they couldn't have those things in 15 
years?
    I also want to mention that a nuclear agreement doesn't 
whitewash the fact that Iran continues to remain a 
destabilizing actor in the region and continues to fuel 
terrorism around the globe.
    Our friends in Israel, rightfully, are concerned that 
Iranian funding of terrorism would continue to affect them in 
an existential way. One of the issues I have had with this 
agreement is that from day one it only focused on--it limits to 
Iran's nuclear program. With this agreement, the way I look at 
it, Iran's financing of terrorism will continue and could 
become much worse. The Iranian Revolutionary Guard Corps would 
take advantage of any sanctions relief that results from an 
agreement between P5+1 and Iran because, simply put, money is 
fungible.
    So I would like to know how, specifically, will we work 
with our allies to minimize the potential windfall to terrorist 
organizations and protect our allies like Israel.
    And the other issue I want to raise is that the lifting of 
the arms embargo and the sanctions--the chairman mentioned some 
of this--and the sanctions around Iran's ballistic missile 
program further destabilizes the region.
    I was very disappointed that these sanctions will 
eventually be lifted. We had been told that Iranian weapons 
transfers and their ballistic missile program were outside of 
the scope of the negotiation. So, in my opinion, the changes to 
these sanctions should have been outside the scope, as well.
    So that means, when the arms embargo expires, Iran will be 
able to legally ship weapons to President Assad so he can 
continue to torture and kill his own people.
    So how will U.S. sanctions work to address this issue? 
Would the administration be open to further congressional 
consideration of new sanctions on Iran's arms activity and 
ballistic missile program?
    And, finally, because the arms embargo and ballistic 
missile sanctions are not specifically mentioned in the JCPOA, 
only the U.N. Security Council resolution governing the JCPOA, 
would violations of the arms embargo be considered violations 
of the JCPOA? Does the snapback of sanctions apply to 
violations of the arms and missile embargoes? If Iran were to 
continue to ship weapons to Hezbollah before the arms embargo 
expires, would they be in violation of the JCPOA?
    Secretary Kerry. Well, Congressman, there are so many 
questions in there. Obviously, we are very happy to come back 
to you on the record. I want to answer every single one of 
them. But let me try to take on the biggest ones first of all.
    Let me just call to everybody's attention here, the IRGC 
opposes this agreement. So they are not sitting there thinking 
they are going to get the whole world and be able to go and do 
what they want to do. And one of the reasons they oppose this 
agreement--and I invite you to talk to the intel community 
about that, they will document it--is that they see themselves 
losing the cover of the nuclear umbrella that they had hoped to 
have for their nefarious activities.
    Now, there is nothing here to prevent us from pushing back 
against the IRGC and others going forward, Congressman. 
Congress and others, we are all free to work together to build 
the pushback against the destabilizing activities.
    But let me ask you a simple question: Is Iran empowered 
more destabilizing the region with a nuclear weapon or stripped 
of that ability with an international agreement it has to live 
up to and then us coming in underneath with a whole set of 
other security arrangements and pushback? I think the answer to 
that is crystal clear.
    Now, you asked the question of what happens with respect to 
year 15. Folks, under the additional protocol and the Modified 
3.1 Code, please focus on what happens. There is not some 
sudden break-off at the end of 15 years. They are under 
remarkable restraint.
    Specifically, the comprehensive safeguards agreement that 
they have to negotiate with the IAEA, which goes on forever, 
provides the IAEA with the right and obligation to provide 
safeguards on all source and special fissionable material in 
Iran to ensure the material is not diverted to nuclear weapons. 
All non-nuclear-weapon states parties under the 
Nonproliferation Treaty have to bring this into agreement.
    The comprehensive safeguard agreement requires Iran to 
maintain detailed accounting records on all material that is 
subject to the safeguards, operating records on all facilities 
subject to the safeguards. All public facilities in their 
program are subject to the safeguards.
    It provides for a range of IAEA inspections, including 
verifying the location, the identity, the quantity, the 
composition of all nuclear materials subject to the safeguards, 
the design of nuclear facilities. It requires the Board of 
Governors to ``take action without delay''--that is a quote--in 
a situation where it is essential and urgent and provides 
consequences for a finding of noncompliance.
    That is just on the side of the declared facilities. There 
are a whole set of requirements for access and inspection and 
accountability on the undeclared facilities.
    So, Congressman, they are forever under enormous 
constraints here with respect to inspections and 
accountability. They have to provide accountability for all the 
nuclear research and development activities not involving 
nuclear material, manufacturing and production of sensitive 
technology, centrifuge rotor components, construction of hot 
cells usable for plutonium separation, uranium mines, 
concentration plants, nuclear waste, all kinds of things.
    Now, let me let Ernie----
    Chairman Royce. Well, may I suggest this, Mr. Secretary? We 
can respond for the record, Mr. Secretary, to the ranking 
member's questions. But if we could go now to Ileana Ros-
Lehtinen. The time has expired here. And we will just get that 
for the record later.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Chairman.
    Last week, the LA Times reported that Iran's Foreign 
Minister told the Iranian Parliament that under the deal Iran 
can deny inspectors access to military sites. Iran's Defense 
Minister has also stated that he would not allow international 
inspectors to enter Iran's military sites. Yet President Obama 
stated:

        ``Inspectors will also be able to access any suspicious 
        location. Put simply, the organization responsible for 
        the inspection, the IAEA, will have access where 
        necessary, when necessary.''

    Can the IAEA really have access to any and all military 
sites suspected of housing nuclear activity? Does the agency 
need preapproval from Iran to access these sites?
    And the whole point of sanctions, Mr. Secretary, was not to 
bring Iran to the negotiation table, and dismantling Iran's 
nuclear infrastructure used to be the administration's goal. 
The administration repeatedly told us that it would focus 
sanctions only on its nuclear portfolio. Yet, in the deal we 
have over 60 pages of individuals, companies, vessels that will 
be delisted, specifically mentioned. Many of these sanctions 
are not nuclear-related.
    The administration has always stated that all provisions 
within this agreement have to be agreed upon by all parties, 
which includes allowing the EU to list sanctions on the Quds 
Force, including its leader Soleimani. What do you say, Mr. 
Secretary, to the families of Americans who were killed or 
wounded as a result of Soleimani's actions in Iraq? And please 
explain to them why as part of the nuclear negotiations the 
U.S. agreed that the IRGC Quds Force that is responsible for 
countless deaths around the globe are going to get their 
designations lifted and will be getting billions of dollars to 
support their acts of terror throughout Europe. And I am glad 
that it is only $50 billion. I feel better already.
    Secretary Kerry, you will be in Cuba soon. I remain 
extremely worried about allowing Cuba to open an Embassy here 
in DC, giving the regime a license to spy against our Nation. 
Will U.S. law enforcement vet every Cuban official, so-called 
diplomat, who wants to come to Washington, and will we reject 
any Cuban official who wishes to be posted in DC if our law 
enforcement officials have information related to their 
espionage apparatus?
    And finally, Secretary Kerry, when announcing the deal, 
President Obama said--the Iranian deal: ``We will continue our 
unprecedented efforts to strengthen Israel's security.'' Will 
you guarantee that the U.S. will veto any measure at the U.N. 
Security Council on Palestinian statehood that calls for 
anything but a two-state solution through direct bilateral 
negotiations between Israel and the Palestinians and nothing 
else?
    Secretary Kerry. So, Madam Chair, let me come back to you 
on the record on a bunch of those, because, again, they are 
more than we can answer in the time we have. And I appreciate 
your effort to get a lot of questions, and we will answer them 
all.
    Let me just clarify a couple of important things. I want 
Ernie and Jack to get in here on two things, one on the money 
and the other on the highly enriched uranium.
    But just very quickly, there is a confusion here between 
the dismantling of the nuclear weapons program versus the 
nuclear program. It was never the goal of this administration--
and by the way, not even the Bush administration. The Bush 
administration in 2008 offered----
    Ms. Ros-Lehtinen. Mr. Secretary, with all due respect, 
perhaps if you could answer about the Soleimani, the lifting of 
sanctions of the EU, which we agreed to.
    Secretary Kerry. Well, I just want to be very clear, 
though, I want to be very clear that we are achieving what we 
set out to do, which is dismantling their capacity to make a 
nuclear weapon.
    With respect to the military sites, yes, they will have, 
providing that is part of the inspection of an undeclared 
suspicious facility. And if it is, we will have access.
    Ms. Ros-Lehtinen. We will have access to the military 
sites?
    Secretary Kerry. If they don't provide it, they will be in 
material breach of this agreement and the sanctions will snap 
back.
    Ms. Ros-Lehtinen. And we consult with Iran before we get 
access?
    Secretary Kerry. Well, there is a process, there is a 
procedure in place, but it doesn't rely on Iran or Russia or 
China saying yes.
    Ms. Ros-Lehtinen. So Iran is wrong when they say that we 
won't have access to military sites?
    Secretary Kerry. No. They are taking care of a domestic 
constituency in the way that they feel they need to. They 
understand that under this agreement----
    Ms. Ros-Lehtinen. Thank you.
    Secretary Kerry [continuing]. What they say is not as 
important as what they do.
    Ms. Ros-Lehtinen. Thank you. My time is up.
    Chairman Royce. I am going to remind the members we have 5 
minutes. So ask the question. Give enough time for response. 
Then with a second question. And what we are going to do is we 
are going to have the response for the record. But I am going 
to encourage the members.
    We are going to go now to Mr. Brad Sherman of California.
    Mr. Sherman. We have got to remember that this is not a 
binding deal. This is not a treaty. This is not binding on 
Iran. This is not binding on the United States. It is not even 
an Executive legislative agreement. And these gentlemen here 
aren't even asking for Congress to approve the deal. I think 
they would appreciate it if we didn't pass a formal resolution 
of disapproval. It might be at most morally binding on this 
administration.
    So what may be important for us is to look to see whether 
it is a good deal in the next couple of years, because I think 
the administration has plans to follow it, unless we prohibit 
that, and also try to see whether we will have Congresses and 
administrations in the future that will take the actions in the 
future necessitated by our national interest.
    One quick observation. The IRGC may publicly oppose this 
deal because that is the best thing the Iranian Government can 
do to persuade us here in Congress to support the deal, or 
maybe they genuinely oppose it.
    But I want to focus, Secretary Kerry, on your remarks about 
dealing with Iran's non-nuclear behavior. And you say we will 
be in a stronger position to deal with that, and we have to 
deal with it. They are holding four American hostages. Assad is 
killing 5,000 people a month at least, and the blood is on the 
hands of men in Tehran. And they are supporting Hamas, 
Hezbollah, and the Houthi, and those are just the organizations 
that begin with the letter H.
    You are not going to be able to persuade them to change 
just by charm, although you bring a considerable amount of 
that. You are going to need to threaten them with new 
sanctions, unless they change their behavior. And we have seen, 
sanctions cause Iran to change its behavior even on things very 
important to Iran.
    Now, I am not asking you whether you think new sanctions 
are a good idea, bad idea, whether Europe will follow, whether 
they won't follow. I am only going to focus on what is legal 
under this agreement.
    You were asked about this in the Senate, and you said, ``We 
will not violate the agreement if we use our authorities to 
impose sanctions on Iran for terrorism, human rights, missiles, 
or other non-nuclear reasons.'' But you then also noted that 
there is this provision in paragraph 26 that commits the United 
States to refrain from reintroducing or reimposing the 
sanctions specified in annex 2, which of course are the very 
best sanctions we have got, although we can probably come up 
with new ones if you tell us that the old ones are forbidden.
    So you were also asked: If we reimpose sanctions on the 
Central Bank of Iran to deter terrorism, would that violate the 
agreement? And you said no. But I would like you to clarify, is 
Congress and the United States free under this agreement to 
adopt new sanctions legislation that will remain in force as 
long as Iran holds our hostages and supports Assad?
    Secretary Kerry. We are free to adopt additional sanctions 
as long as they are not a phony excuse for just taking the 
whole pot of the past ones and putting them back. We can put 
them in place.
    Let me let Jack----
    Mr. Sherman. Secretary Kerry, it is my time, and I have got 
a lot of other questions.
    Now, we have got a number of entities listed for their 
nuclear activities that deserve to be listed for their 
terrorist activities. It is just you haven't had time to put 
them on that second list. Will you be putting entities who are 
on the list of sanctions for their nuclear activity on the 
terrorist list if they deserve it, and can you get that job 
done before this agreement becomes effective?
    Secretary Kerry. Well, we have terrorism sanctions in place 
right now.
    Mr. Sherman. But we have got to list additional entities.
    Secretary Kerry. We are free to add, and we have added.
    Mr. Sherman. And we are free to add those who----
    Secretary Kerry. By the way, we added some 60 entities 
during the course of these negotiations.
    Mr. Sherman. Let me get to one other question. You strongly 
do not want us to override a Presidential veto, but if we do, 
that triggers certain American laws. I would like to give you 
an opportunity. You don't want us to do it. You think it is 
terrible policy. You think the rest of the world would be 
against us.
    But let's say Congress doesn't take your advice. We 
override a veto. And the law that is triggered then imposes 
certain sanctions. Will you follow the law even though you 
think it violates this agreement clearly and even if you think 
it is absolutely terrible policy?
    Secretary Kerry. I can't begin to answer that at this point 
without consulting with the President and determining what the 
circumstances are----
    Mr. Sherman. So you are not committed to following the law 
if you think it is a bad law?
    Secretary Kerry. No, I said I am not going to deal with a 
hypothetical, that is all. I would like the Secretary of the 
Treasury to respond on the sanctions.
    Chairman Royce. We are out of time. We are going to have to 
go to Mr. Chris Smith of New Jersey. But for the record, Mr. 
Secretary, please put it in the record and we will have it.
    Secretary Lew. Mr. Chairman, on the financial issues and on 
the sanctions issues, there is a lot of responses to the 
questions that are being asked, and if we got a minute or 2 to 
respond, it might actually be helpful to those who want to 
understand the agreement.
    Chairman Royce. Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    Welcome to the committee, gentleman.
    Numerous reports of Iranian collaboration with North Korea, 
including articles written by Assistant Secretary of State 
Douglas Frantz way back in 2003, make it clear that North Korea 
is collaborating with Iran. One first question, what happens 
under the agreement if North Korea conveys nuclear weapons to 
Iran and other capabilities that they certainly have at their 
disposal?
    The issue of the arms race is real. I think this 
incentivizes Saudi Arabia and others, Egypt, to acquire a bomb. 
That means the Middle East becomes even more of a powder keg.
    Saeed Abedini, Hekmati, Rezaian, Levinson, when are they 
going to be free, if you can speak to that, Mr. Secretary?
    In your opening you said even if they break out, they still 
have to go design the bomb. But that is the problem with this 
agreement. It once again kicks the issue of the past military 
dimensions of Iran's program down the road.
    Iran has been stonewalling the IAEA on this point for 
years. Inspectors have long been denied access to the Parchin 
military site, where it is believed that Iran tested detonators 
for nuclear warheads. Iran has refused inspectors access to the 
Parchin site for years. In 2013, there were even images showing 
bulldozing of buildings and removing of roads.
    Is the IAEA being pressured to accept terms that fail to 
provide inspectors full access and disclosure?
    And the last point, Mr. Secretary, yesterday at the TIP 
Report release you spoke eloquently and boldly about combating 
modern day slavery. I deeply respect your personal commitment 
to ending sex and labor trafficking. But while the report is 
accurate, I am concerned that the designations for several 
countries miss the mark, and a number of countries got 
absolutely unmerited upgrades, including Malaysia, Cuba and 
Uzbekistan.
    I went back and read the reports from last year and the 
year before. In China, there were 35 convictions of 
trafficking, and that is now a Watch List country. Cuba, 13 
convictions for sex trafficking. The narrative gets it right. 
None for labor trafficking. They say there is no labor 
trafficking, it doesn't exist, which is nuts. A year ago there 
were 10 convictions. So we are talking about absolutely 
minimal.
    Thailand, by contrast, had 151 convictions. They are still 
Tier 3. And Malaysia had three convictions for sex and labor 
trafficking, a decrease from nine from last year, and they were 
Tier 3.
    The narratives get it right. The designations miss it by a 
mile.
    Secretary Kerry. Well, I am going to deal with the TIP. I 
would be happy to sit down with you and talk that through. 
Since time is so precious here, I want to stay on Iran, and I 
want my colleague to be able to address a couple key issues.
    Secretary Lew. Mr. Chairman, if I could just respond to a 
couple of the issues that have been raised. Congressman Engel 
asked about the money----
    Mr. Smith. If the gentleman would yield. This is my time. I 
would really like to know about the questions.
    Chairman Royce. Mr. Smith, we will get answers here to 
everything. Let's let the witness.
    Secretary Lew. On the question of the flow of money to 
Iran, there have been a range of estimates as to how much money 
Iran has locked up. Let's remember why the money is locked up. 
It is locked up because our international partners worked with 
us to take Iran's money and not let Iran get it.
    At the highest number that we see, there is $115 billion 
that is theoretically available. In reality, $58 billion to $59 
billion of that is unavailable, roughly $20 billion is tied up 
in contracts like China, and the balance is things like 
nonperforming loans.
    Now, I am not going to say that $56 billion is not a lot of 
money, but it is not $150 billion, and it cannot all be used 
because they need to keep some foreign reserves just to run 
their economy. If you look at the demands in Iran's economy for 
the use of that money, we see at least $500 billion of 
competing demands for that $50 billion.
    So in any kind of an allocation of that resource, you look 
at what they have done under sanctions, they have managed with 
sanctions in place to put several million dollars a year toward 
malign purposes. We can't say that there won't be any more 
money going to malign purposes.
    But I think the order of magnitude is way, way smaller, and 
it is in line with the kinds of spending they have been doing 
anyway. You compare that to an Iran with a nuclear weapon, the 
bigger threat to us and our friends in the region is Iran with 
a nuclear weapon having the same kinds of objectives.
    On Congresswoman Ros-Lehtinen's questions about the IRGC 
and Soleimani, Soleimani is not delisted. We have not delisted 
the major entities of the IRGC. There are a few entities whose 
identity has changed over time, whose leadership has changed 
over time. Privately, we are happy to go through the individual 
cases. But we have kept in place our sanctions regime on 
terrorism.
    Chairman Royce. Thank you, Mr. Secretary.
    Now, we have got three questions that were asked by the 
gentleman from New Jersey. If we can just have a succinct 
answer to those.
    Secretary Kerry. Congressman, the greatest incentive for an 
arms race in the region, for Egypt or Saudi Arabia or one of 
the other countries to try to get a bomb, will be if this 
agreement is rejected. And the reason will be that Iran will go 
back to enriching, we will not have inspection, we will not 
have insight, and they will say: Oh, my God, now they are going 
for a bomb, now we have a reason to have to get one. They have, 
in fact, told us, these countries, that they are not going to 
chase a bomb providing the implementation of this agreement 
continues and providing that we are working with them on the 
other pushback issues for the region.
    With respect to the issue of Parchin, yes, there will be 
access as appropriate under the agreement between the IAEA and 
Iran, and that is an agreement which is normally entered into 
confidentially between those countries.
    Mr. Smith. Again, that is the problem.
    Americans held captive and North Korea gets the bomb, or 
conveys a bomb to Iran, what happens there?
    Secretary Moniz. May I comment? I believe I heard you say, 
Congressman, that Iran set off a nuclear explosive at Parchin. 
That is incorrect.
    Mr. Smith. I didn't say that. I didn't say that at all.
    Chairman Royce. Those weren't his remarks, if I could just 
interject.
    Mr. Smith. Really, at least get that right.
    Secretary Kerry. But there will be appropriate access.
    Mr. Smith. But appropriate, how is that defined?
    But, again, on the Americans held captive and on the issue 
of North Korea conveying bombs to Iran, what happens under the 
agreement?
    Secretary Kerry. My last conversation with Foreign Minister 
Zarif and with the brother of the President was regarding the 
four people being held, the four American citizens. And we have 
followed up on that conversation since then. We are in direct 
conversations. That is all I am going to say here today. But I 
hope that they will be returned to be with their families.
    Mr. Smith. North Korea and a bomb, they convey bombs to 
Iran, what happens under the agreement, anything?
    Secretary Kerry. If North Korea what?
    Mr. Smith. If North Korea were to provide weapons, nuclear 
weapons to Iran, what happens?
    Secretary Kerry. Well, they can't do that, and both Iran 
and North Korea would be in gross violation of the 
Nonproliferation Treaty, and we would take action.
    Mr. Smith. North Korea seems not to care.
    Secretary Kerry. And Iran would be in violation of this 
agreement.
    Chairman Royce. All right. So we have Albio Sires from New 
Jersey.
    Mr. Sires. Thank you Mr. Chairman.
    Thank you for being here.
    There are deep divisions in Iran, evidenced by the comments 
made by the hardliners and the Prime Minister and the Foreign 
Minister and the Supreme Leader. Are these divisions likely to 
resurface during the implementation of this agreement? And what 
are the consequences of these divisions for the implementation? 
Because I keep reading that they are constantly going back and 
forth. And I am concerned that we get an agreement and the 
hardliners----
    Secretary Kerry. So, Congressman, it is a very, very good 
question and appropriate to understanding the dynamic here.
    We saw the exact same divisions of things that were being 
said regarding the interim agreement, if you recall. And what 
we have learned is it is not as important what they say, it is 
important what they do, and make sure that their actions are 
held accountable. Every aspect of the interim agreement has 
been lived up to, notwithstanding denials that came out 
publicly from certain politicians or from certain leaders.
    We have seen the same thing here. We heard that X or Y or Z 
was a red line, it wouldn't be able to do it, et cetera. But 
the agreement is the agreement. That is why we have been so 
clear, Mr. Chairman, that nothing in this agreement is based on 
trust. Nothing is based on an expectation of some change of 
behavior. This agreement is 100 and whatever pages, 9 pages, 
because it is specific with its annexes in declaring what is 
expected of whom and when. And that precision is what gives us 
confidence we will be able to hold them accountable.
    Mr. Sires. Thank you. And, Secretary, you said there is 
only $56 billion for them to really----
    Secretary Lew. That is accessible.
    Mr. Sires. Accessible. But really, they do not need a lot 
of money for some of these groups to start up again. I mean, 
they don't need billions, they can't absorb billions, some of 
these groups. So, I mean, there is enough money there to stir a 
lot of problems.
    Secretary Lew. I mean, the problem is that even with all of 
the sanctions in place, they are finding the relatively small 
sums of money that it takes to do terrible acts of regional 
destabilization and support of terrorism. So they are doing 
that now with the sanctions in place. And what I am saying is I 
don't think you are going to see the shape of that support 
change. Though there will be some more resources available, it 
will on the margin, and it will be along the lines of what they 
are already doing, which puts the burden on us and our allies 
in the region to shut down the flow of money and the flow of 
materiel to malign forces.
    Frankly, one of the issues we discussed with our Gulf 
allies when we met with them at Camp David was how to work more 
effectively together to shut down some of those flows of money, 
things that are happening today, with the sanctions in place. 
So I think the problem exists today, with or without an 
agreement.
    And the challenge on this money that is Iran's money locked 
up overseas is it is not in the United States. A lot of the 
money is in China. A lot of the money is in India. It is in 
other places. If the P5+1 agreement is rejected by the United 
States, I don't think we can rely on those other countries 
keeping that money locked up. So you could end up with Iran 
getting access to that money without the benefit of an 
agreement, which would be a very bad outcome.
    So I think that we have to keep it in perspective. It is a 
serious issue. We have made the commitment to continue 
designating, like we did last week, additional Hezbollah 
actors. We will continue to do that. We have sanctions and 
secondary sanctions in place. We will double and redouble our 
efforts on that. We need to get our allies to be part of it. 
But that is not a reason not to have an agreement to make sure 
that Iran doesn't get a nuclear weapon.
    Secretary Kerry. Also, Congressman, I would just 
underscore, if you look at their activities, they are not 
capital intensive, what they have been doing with the Houthi, 
what they have done over the years.
    So I think that our objective here was to make sure they 
can't have a nuclear weapon, and, secondly, to work with our 
allies and friends in the region in order to do a greater job, 
a much better job of pushing back against those activities. And 
I am going, at the end of this week, I will be meeting in Doha 
with the Gulf states. We are laying out with them the very 
specific steps with respect to that pushback and what we will 
be engaged in, in order to increase the security and push back 
against these activities you are talking about.
    But it is impossible to do them all in one pot at one time. 
First step nuclear weapon. Now we have the opportunity to press 
for the changes that we want.
    Mr. Sires. Thank you.
    Chairman Royce. Thank you.
    We go to Mr. Dana Rohrabacher of California.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. And, 
again, thank you and Ranking Member Engel for providing such 
leadership on this issue. We have had many hearings about it.
    And, Mr. Secretary, let me note that while you are 
receiving quite a grueling today, let us note that we 
appreciate the hard work that you and others in the 
administration are making. We know that you sincerely are 
looking to make this a more peaceful world. But some of us 
realize that in the past we have seen people who are very 
sincere in seeking peace creating a--unfortunately, setting 
things off in a direction that led to war and led to more 
repression and didn't create a more peaceful world.
    One of the efforts that I noted when I was part of this is 
how Ronald Reagan succeeded in ending the Cold War, and during 
that time period we reached weapons agreements with the Soviet 
Union.
    But let me note, while we were making those agreements with 
the Soviet Union to put a lid on nuclear weapons in Europe, et 
cetera, we ratcheted up our support for the democratic elements 
who were struggling against Soviet domination in various parts 
of the world. Whether it was in the Soviet Union or in 
Nicaragua or Afghanistan, we were actually increasing our 
efforts to support those people. We also denied them hard 
currency, much less had any agreement that would have bolstered 
the Soviet economy. And because we had that approach, the 
Soviet Union fell apart, and in the long run that is what made 
a more peaceful world, the elimination of that regime.
    And I am afraid that--without fighting, by the way, we 
eliminated it--I am afraid that this treaty that you are 
talking about today and you are promoting will do just the 
opposite then what we saw succeeded, and that it is it will 
actually empower the mullahs. Rather than making it a more 
peaceful regime and make peace more likely, empowering the 
mullahs in the long run will create more chaos, more likelihood 
of war, because they are the main proponents and supporters of 
terrorism and, of course, hatred toward the West that we have 
seen coming from their regime.
    Now, what I would like to ask you is that we all know in 
this body, we have been aware, for example, of the repression 
and the brutal treatment of people within Iran, like the MEK, 
who are suffering, and you have noted this in the past 
yourself, the brutality that these people who oppose the regime 
have had to face.
    Did you confer in any way with the people, the democratic 
elements in Iran, or these other people who are struggling for 
a free Iran and how this agreement will affect their long-term 
goal for a democratic Iran and thus a more peaceful world?
    Secretary Kerry. Well, as you know, this was a nuclear 
negotiation. But I have on many occasions met with and had 
discussions with folks representing different interests and 
aspirations within Iran.
    What I would say to you, Congressman, and you have to make 
sort of a hard judgment here about where Iran is, President 
Rouhani and Foreign Minister Zarif are both individuals who 
have expressed a very different point of view from the past 
leadership of Iran.
    Mr. Rohrabacher. I have a limited amount of time. So your 
answer is, no, that you did not confer with the democratic 
elements----
    Secretary Kerry. No, that is not what I said. I said I have 
had plenty----
    Mr. Rohrabacher [continuing]. But you have been 
conferring--but you are conferring with their oppressors 
instead. The fact is that----
    Secretary Kerry. No, I didn't say that. I don't think I 
said that at all, Congressman.
    Mr. Rohrabacher. And during the Reagan years, Mr. 
Secretary, during the Reagan years--we talk about only $55 
billion. Well, okay, we will figure out whether it is $150 
billion that the mullahs are going to have or whether it is $50 
billion. But the fact is, part of the effort that worked under 
Reagan was supporting the democratic element and undermining 
the economy of the Soviet Union.
    In the long run what will bring peace to this part of the 
world is not for us to have short-term arms deals with the 
mullah regimes and the other people who hate the West and are 
supporting terrorism, but to try to support those elements in 
those societies that want peace with the West and aren't 
preparing some sort of holy war against us.
    I am sorry, Mr. Secretary, I appreciate your sincerity and 
what you guys are trying to do, but I believe this treaty will 
empower the mullahs and make conflict more likely.
    Chairman Royce. Mr. Gerry Connolly of Virginia.
    Mr. Connolly. I thank the chairman.
    And I find, my friend from California, I find his words 
ironic, because Ronald Reagan was nothing if not a pragmatist 
and was quite capable of compartmentalizing relationships for 
the sake of a greater good. His relations with the Soviet Union 
were the quintessence of that kind of pragmatism, exactly what 
is in front of us today. Something is overriding: Nuclear 
capability in the region. Shall we deal with it or not?
    Samuel Taylor Coleridge described fiction as the willing 
suspension of disbelief. I must say I find a lot of fiction 
involved, the willing suspension of disbelief, in some of the 
criticism of this agreement. It is not perfect. It will hurt 
Israel. It will give them a nuclear capability some day. It 
doesn't do enough. It doesn't deal with ancillary and 
horrendous behavior. Well, who said it would?
    And here is the bottom line. Valid though many of those 
criticisms may be, imperfections we can find by the score, what 
is your program? And you know what I have heard in a series of 
hearings here? Let's just go back to the P5+1 and Iran and say 
we just couldn't sell it, let's start over. That is one of the 
most monumentally naive statements I have ever heard, and it 
came from a former Member of Congress who knows better. It is 
not true. It won't happen.
    At least let's stick to the facts. But, no, the willing 
suspension of disbelief is at work, it is alive and well here, 
including the issue of the existential threat to Israel. 
Walking away from this agreement, you need to take 
responsibility for the consequences to Israel, whether you are 
Bibi Netanyahu or you are a Member of Congress, and you have 
got to weigh it really carefully. What will happen? What risks 
am I willing to take before I cast that vote on behalf of our 
country and our allies like Israel?
    Mr. Secretary, I think it is an extraordinary job you have 
done, and I would like to give you the opportunity to talk 
about two problems. And you, too, Mr. Secretary, Secretary 
Moniz. If we walk away from this agreement, what in your 
analysis is likely to happen?
    And secondly, Secretary Moniz, to me one of the real 
vulnerabilities in this agreement is that 24-day problem. All 
of us have reason to be concerned about that. That is not quite 
the robust inspection we had hoped for.
    Secretary Kerry. So I am going to be very quick, because I 
want Ernie to get in here.
    But it is not speculation, it is clear, if Congress rejects 
this, Iran goes back to its enrichment, the Ayatollah will not 
come back to the table. Anybody who makes that judgment has not 
talked to the intel community. And there is no way, given his 
feelings already about the West and his mistrust of us and his 
reluctance to even have engaged in this discussion, that he is 
suddenly going to reenter if we reject this.
    Moreover, the sanctions regime completely falls apart. The 
folks we relied on to provide a united front here, France, 
Germany, Britain, China, Russia, go off, and we will have set 
ourselves back, folks. I don't know how I would go out to 
another country if that happens and say: Hey, you ought to 
negotiate with us, or you ought to talk to us about any issue, 
whatever it is, with the reliance that we can actually deliver. 
Because they will sit there and say: Well, you have got 535 
Secretaries of State in the United States, we don't know who we 
are negotiating with, and whatever deal we make always risks 
being overturned.
    That is not the traditional relationship that has existed 
between the Executive and the Congress.
    And finally, Iran will say: We are free. We can go back to 
our program. And what I said earlier about bringing year 15 to 
today, it happens, year 20, whatever it is. They will take 
their 19,000 centrifuges, they have the ability to enrich, and 
they will feel we have backed off.
    Ernie, would you address the----
    Secretary Moniz. Yeah.
    First, let me just add that from my 5 months at the 
negotiating table, I doubt our P5+1 partners would be any more 
interested in going back to the table than Iran.
    On the 24 days, again, let me emphasize that all the 
regular access--well, for declared sites--is constant. The 24 
days is a new tool in the sense that there has never been any 
limit at all. And so the key is in getting enough of a 
compressed process where we feel confident in being able to 
detect any use of nuclear materials, number one, over that time 
period. And in a classified environment we could provide even 
more evidence than I have already discussed today.
    Chairman Royce. Thank you, Mr. Secretary.
    We go to Steve Chabot of Ohio.
    Mr. Chabot. Thank you, Mr. Chairman.
    Thank you for being here, Mr. Secretary.
    This administration, the President specifically called 
ISIS, famously, the JV team. That clearly wasn't true. This 
administration cited Yemen as the model approach to U.S. 
counterterrorism, and that was shortly before Yemen's near 
total collapse into chaos. So that wasn't true either. 
President Obama declared al-Qaeda to be ``decimated,'' ``on the 
run,'' ``broken apart,'' ``on their heels,'' ``very weak,'' and 
those are all quotes, by the way. Now, that may be wishful 
thinking, but it certainly wasn't true and isn't true.
    Why should the American people trust the administration now 
on this deal?
    Secretary Kerry. We are not asking them to trust. We are 
asking them to read the deal and look at the components. As I 
have said many times, nothing in this deal is built on trust. 
Nothing. It is on very specific steps that have to be taken. 
For instance, Iran gets zero relief from the sanctions until 
Iran has implemented the 1-year breakout time by destroying the 
calandria, taking out their centrifuges, undoing their 
electrical, undoing the piping. They have to do all of that----
    Mr. Chabot. As you know, I have got limited time, so I am 
going to move on to my next question.
    Secretary Kerry. All I am saying is they have to take 
specific steps.
    Mr. Chabot. But when you say that that doesn't depend on 
trust, that just strains credibility, I think, to say there 
isn't trust on both sides involved in this. There has to be or 
there is no deal.
    Sticking with this theme on trust, let me ask you this: 
Relative to anywhere, anytime inspections, you said, and I 
quote:

        ``This is a term that, honestly, I never heard in the 4 
        years that we were negotiating.''

    Now, in fact, in April this year Deputy Secretary Advisor 
Ben Rhodes had said that the International Atomic Energy Agency 
would have immediate access--immediate access--to any site that 
the agency wanted to inspect. Now, immediate access sure sounds 
like anytime to me.
    And also, in April, Energy Secretary Moniz, who is the 
gentleman sitting next to you there, he said, and I quote:

        ``We expect to have anywhere, anytime access to places 
        that are suspected of out-of-bounds activities.''

There is that anywhere, anytime once again.
    So, again, why should the American people trust what they 
are being told by this administration about this deal?
    Secretary Moniz. May I say, my quotes have anytime, 
anywhere in the sense of a well-defined process and a well-
defined timescale, and that is what we have.
    Mr. Chabot. Okay.
    Secretary Kerry. But let me go further than that. I have 
been negotiating----
    Mr. Chabot. That really clears things up, Mr. Secretary. So 
thank you.
    Go ahead, Mr. Secretary.
    Secretary Kerry. We never had a discussion in the context 
of these negotiations that talked about anywhere, anytime. 
Nowhere on the planet Earth does any country anywhere under the 
NPT have anything called anywhere, anytime. What we have is 
called managed access, and it is a process by which we get in.
    Mr. Chabot. With this 24 days, okay, I mean, that came out 
to 24 days.
    Secretary Kerry. Please let me answer, let me answer the 
question.
    Mr. Chabot. And we know that that is longer. That is months 
actually.
    Secretary Kerry. Twenty-four days is an outside period of 
time during which time, and for 24 years or longer, 2,400 
years, they would not be able to hide the remnants of nuclear 
activity, of fissile material, and Ernie Moniz will tell you 
that.
    But leaving that aside, the 24 days----
    Mr. Chabot. Mr. Secretary, as you know, I have only got 5 
minutes, and I have got several more questions. Let me ask you 
this.
    Secretary Kerry. Congressman, you love asking questions and 
having no answers.
    Mr. Chabot. If this is such a good deal, why is Israel so 
opposed to it?
    Secretary Kerry. First of all, I understand when you say 
Israel, there are people in Israel who support it.
    Mr. Chabot. And the Prime Minister, okay, he is the 
representative, just like President Obama is the representative 
of our country on these types of things.
    Secretary Kerry. I understand, and you will agree that 
President Obama always talks for everybody in the country, 
right?
    Mr. Chabot. Well, he is sure speaking for us in this 
agreement, and he seems bound and determined to go forward with 
this thing whether the elected representatives of the American 
people, the majority of us at least, are for it or not.
    Secretary Kerry. Let me speak to your question, because it 
is a serious question and it is important. As I said earlier, 
we fully understand, every Israeli has concerns, has fears. 
There are concerns about the region they live in, about the 
nature of the rhetoric that is used, death to Israel, death to 
America. Everybody is concerned. Which is why this is not based 
on some element of a dream they are going to change or some 
element of trust.
    But I will tell you there are people in Israel who----
    Mr. Chabot. You are going to name a couple of people. The 
Prime Minister is against it. And I am almost out of time.
    This is one of the main reasons, as a representative of the 
American people, I am so concerned, because Israel could be 
directly affected, but with these ICBMs and the technology that 
could be coming, it could make American cities at risk.
    Chairman Royce. Excuse me, Mr. Chabot. We have got to go to 
Mr. Ted Deutch of Florida.
    Mr. Deutch. Thank you. Thank you, Mr. Chairman. And thanks 
to our witnesses for being here.
    Secretary Kerry, thank you as well on behalf of my 
constituent's family, Robert Levinson, for continuing to raise 
his plight and that of the three other Americans who are held. 
And I agree with you that it is time for them to come home.
    I want to talk specifically about PMD, because if we don't 
address PMD, the military dimensions of the program, then it is 
impossible for us to believe that the IAEA will have the 
credibility it needs going forward.
    Under the terms of the agreement, the nuclear-related 
activities that are set forth that need to be satisfied in 
order for there to be sanctions relief refer to the road map, 
the IAEA-Iran road map, except they leave out the most 
important point, which is the one that the IAEA has to have 
final resolution of PMD.
    So I have two questions. The first question is, will we 
have access, will the IAEA have access to Parchin? The second 
question is, am I right, because I don't see any other way to 
read the agreement, that satisfaction of PMD will not be a 
prerequisite to Iran getting sanctions relief?
    Secretary Kerry. It is. It is a prerequisite. If they 
haven't complied with the IAEA and lived up to the dates that 
are laid out in the program, August and October, they will not 
get relief.
    Mr. Deutch. Mr. Secretary, I acknowledge that. But by 
October 15, they have to have activities, they need to set out 
what they are going to do. But it is December 15 by which the 
Director General and the Board of Governors will assess whether 
or not they have complied, and that is not a condition under 
the deal.
    Secretary Kerry. Actually it is. They would be in material 
breach if they don't do this. We have told them that and they 
understand that. Moreover----
    Mr. Deutch. I understand. I would just point out it is 
specifically omitted in the list of past and present concerns. 
It is not a requirement.
    Secretary Kerry. Well, the outcome. If you are talking 
about the outcome, it is not dependent on the outcome because 
the outcome, we have no way of knowing which way obviously that 
goes.
    Mr. Deutch. But that is the issue, Mr. Secretary.
    Secretary Kerry. No, it is whether they comply or not. We 
know what they were doing. We have already drawn our conclusion 
about 2003. We know they were engaged in trying to make a 
weapon.
    Mr. Deutch. So that is my point.
    Secretary Kerry. So it is not the outcome that determines--
--
    Mr. Deutch. This is important. So you are saying that 
even----
    Secretary Kerry. It is compliance.
    Mr. Deutch. Right. So if they comply with the IAEA, but the 
IAEA ultimately concludes that they are not satisfied on PMD, 
either because they don't have access, because they didn't get 
access to the site----
    Secretary Kerry. Then they are not in compliance.
    Mr. Deutch [continuing]. Because they didn't get access to 
the scientists?
    Secretary Kerry. That would be a breach. We would not do 
sanctions relief. They know that.
    Mr. Deutch. Then I would respectfully suggest that it is 
not at all clear in the agreement. We could talk about that.
    I would like to move on to the issue of specifically the 
sanctions. This has been brought up by a number of my 
colleagues. The annex 2 that lists lots and lots of individuals 
and entities that are getting sanctions relief under this deal, 
many of them are listed, are involved in not just proliferation 
activities, but they are also involved in terrorism, support 
for terrorism. They are involved in human rights abuses. They 
went on this list because it was easier to get our European 
allies to go along with the proliferation sanctions.
    And I have a very specific question. Secretary Lew, I 
appreciate that we are going to continue to sanction Hezbollah. 
But what I really want to know is, will we be able to and are 
we going through the process now of scouring this list, not 
just for individuals, but for banks and shipping lines and 
state-owned companies, to reimpose sanctions if they are 
subject to sanctions for terrorism?
    Secretary Lew. Well, Congressman, first, we have not listed 
for relief many entities. The IRGC----
    Mr. Deutch. I understand. But I am asking about this----
    Secretary Lew. There are institutions that were designated 
for their acts of terrorism or regional destabilization that 
have not been relieved.
    Mr. Deutch. Mr. Secretary, I understand that. I have a very 
specific question. Will we be able under this agreement to 
reimpose sanctions on all of these individuals and entities if 
we find they should be because of their terrorism?
    Secretary Lew. Congressman, we have retained all of our 
rights to designate firms and individuals under terrorism 
sanctions----
    Mr. Deutch. Including everyone listed in this annex?
    Secretary Lew--including entities who are on the list. What 
we cannot do--and this is what Secretary Kerry was saying a few 
minutes ago--we cannot just put in place the nuclear 
sanctions----
    Mr. Deutch. I understand. No, no, I understand.
    Secretary Lew. We have given up no ability to target 
individuals or entities.
    Mr. Deutch. Including, I hope we are going through the list 
and scouring it right now. I only have a few seconds left. And 
I would just ask for some acknowledgement that when we say that 
Iran is engaged in all these terrible activities now and it 
doesn't cost much money, I would suggest that it has been 
reported that $200 million a year is the amount that they use 
to fund Hezbollah. So if only $1 billion of the $56 billion 
were to go to Hezbollah, we would double the amount of support 
for 5 years, at which time the arms embargo comes off and they 
are considerably more dangerous. We have to at least 
acknowledge that that could occur.
    Secretary Kerry. Congressman, we can put the arms--there 
are plenty of opportunities to deal with the arms.
    Chairman Royce. Joe Wilson of South Carolina.
    Secretary Kerry. There is a U.N. resolution preventing them 
from taking weapons to Hezbollah. There is a resolution 
preventing them from sending weapons to Iraq, preventing them 
from sending weapons to----
    Chairman Royce. At this time we have got to go to Joe 
Wilson of South Carolina. Thank you.
    Mr. Wilson. Thank you, Chairman Ed Royce and Ranking Member 
Eliot Engel, for hosting this hearing, and I appreciate the 
panel being here today.
    Secretary Kerry, I share the concerns of an op-ed by David 
Horovitz of The Times of Israel where he presents 16 reasons 
the nuke deal is a catastrophe for the Western world. I will 
present these as questions for the record for you to answer 
during the coming month. We need this as a response for the 
American people so that as we vote in September, the American 
people will know, as you stated a few minutes ago, the correct 
facts.
    One, was the Iranian regime required to disclose the 
previous military dimensions of its nuclear program in order 
both to ensure effective inspections of all relevant 
facilities? No.
    Two, has the Iranian regime been required to halt all 
uranium enrichment, including thousands of centrifuges spinning 
at the main Natanz enrichment facility? No.
    Has the Iranian regime been required to shut down and 
dismantle the Arak heavy water reactor and plutonium production 
plant? No.
    Four, has the Iranian regime been required to shut down and 
dismantle the underground uranium enrichment facility it is 
building at Fordow? No.
    Five, has the Iranian regime been required to halt its 
ongoing missile development? No.
    Six, has the Iranian regime been required to halt research 
and development of the faster centrifuges, which will enable it 
to break out the bomb far more rapidly than is currently the 
case? No.
    Seven, has the Iranian regime been required to submit to 
anywhere, anytime inspections of any and all facilities 
suspected of engaging in rogue nuclear-related activity? No.
    Eight, has the international community established 
procedures setting out how it will respond to different classes 
of Iranian violations to ensure that the international 
community can act with sufficient speed and efficiency to 
thwart a breakout of the bomb? No.
    Eight, has the Iranian regime been required to halt its 
arming, financing, and training of Hezbollah terrorist army in 
south Lebanon? No.
    Ten, has the Iranian regime been required to surrender for 
trial the members of the leadership placed on an Interpol watch 
list for the alleged involvement in the bombing by the 
Hezbollah suicide bomber of the AMIA Jewish Community Center in 
Buenos Aires, Argentina, in 1994, and resulting in the deaths 
of 835 people? No.
    Eleven, has the Iranian regime undertaken to close its 80 
estimated cultural centers in South America from which it 
allegedly fosters terrorist networks? No.
    Twelve, has the Iranian leadership agreed to stop inciting 
hatred among its people against Israel and the United States 
and stop its relentless calls for the annihilation of Israel? 
No.
    Thirteen, has the Iranian regime agreed to halt executions 
currently running at an average of some three a day, the 
highest rate in 20 years? No.
    Fourteen, does the nuclear deal shatter the painstakingly 
constructed sanctions regime that forced Iran to the 
negotiating table? Yes.
    Fifteen, will the deal usher in a new era of global 
commercial interaction with Iran, reviving the Iranian economy 
and releasing financial resources that Iran will use to bolster 
its military forces in terrorist networks? Yes.
    Sixteen, does the nuclear deal further cement Iran's 
repressive and ideologically rapacious regime in power? Yes.
    I am going to be submitting these for the record, and I 
look forward to receiving them during the next month. In the 
meantime, the American people need to know there is bipartisan 
opposition to this deal. I was really grateful, 2 weeks ago we 
had Senator Joe Lieberman here who addressed my concern, and 
that is that the Secretary of State designated Iran a state 
sponsor of terrorism over 30 years ago in response to the 
hundreds of Marines who were killed at the Marine barracks. And 
I asked Senator Lieberman, has there been a change in course? 
His quote directly:

        ``This regime, the Iranian Government, the Islamic 
        Republic of Iran, has the blood of a lot of Americans 
        on its hands, the Marines at the barracks in Beirut, 
        the soldiers of Khobar Tower, and I would go on. 
        Incidentally, hundreds of American soldiers were killed 
        in Iraq by Shia militias that were trained and run by 
        the IRGC. Sir, your question is a good one: Has the 
        government changed? There is no evidence of change.''

    Mr. Secretary, has there been evidence of change?
    Secretary Kerry. Yes, in that the President of Iran sent 
his Foreign Minister to negotiate an agreement to which I could 
pose you a lot of questions that I can give you the answer to 
that are ``yes'' too. Does Iran have to give up two-thirds of 
its centrifuges for 10 years? Yes. Does Iran have to annihilate 
its----
    Mr. Wilson. And, Mr. Secretary, those are words----
    Chairman Royce. If the gentleman will suspend. Your time 
has expired. I have suggested to the members, ask the questions 
and leave time for a response.
    We are going to Brian Higgins of New York.
    Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman.
    The snap-back provisions in this agreement are real and 
powerful, and I think are born out of a deep distrust of Iran. 
The snap-back provisions, as I understand them, allow for any 
of the six powers to the deal to flag what it considers a 
violation. That concern would be submitted to a dispute 
resolution panel. If those concerns remain unresolved, the 
sanctions would resume or snap back after 30 days. Preventing a 
resumption of sanctions would require a vote of the Security 
Council, from which the United States and its Western allies 
would have veto power. It is unprecedented and I think very, 
very powerful and speaks volumes to this deal.
    Under this deal, uranium would be cut by 98 percent. The 
level of enrichment for what remains is 3.67 percent, a long 
way from the 90 percent enrichment that would need to occur to 
achieve a weapons-grade or fissile material. Centrifuges would 
be reduced from 19,000 to a little over 6,100 for 10 years. 
There would be no enrichment at Fordow, and the only 
centrifuges permitted for use would be older, first-generation 
centrifuges. Plutonium. The Arak facility would be 
reconstituted so it cannot make weapons-grade material, and 
materials that do exist there today would be sent out of the 
country entirely.
    Number four, Iran may try to build a nuclear weapon in 
secret. Mr. Secretary of Energy, I would ask you, through 
robust monitoring and verification and inspection, the deal 
would allow inspectors access and to inspect any suspicious 
site. I heard critics of this plan say that, well, that is 
like, because of this 24-day period, it is like a police 
officer calling a drug dealer to say that we are going to raid 
your apartment in 24 days so that they can clear all the 
evidence.
    Would you speak to this within the context of physics and 
talk about the half life of both uranium and plutonium?
    Secretary Moniz. I will start with the last question then, 
if I may. Well, first of all, technically on the half life, the 
half life of the dominant uranium isotope is roughly the age of 
the Earth, which is why it still exists in the Earth. And that 
of uranium 235, which is the isotope that you would want to 
enrich for a nuclear weapon, is somewhat shorter and therefore 
is more rare in nature.
    However, first of all, the analogy to putting the drugs 
down the toilet is not very applicable to the use of nuclear 
materials. And as I have said, in the both unclassified and 
classified regimes, we have extraordinarily sensitive ways of 
finding miniscule amounts that are left over from using nuclear 
materials, whether it is enrichment or whether it is in an 
explosive environment to understand this nuclear weapons 
behavior. So on that we are very, very clear.
    And in addition, we have other constraints on them, some of 
them forever, in terms of other parts of weaponization, like 
neutron sources, where we also would have some interesting 
signatures should there be suspicious activity.
    Mr. Higgins. Secretary Lew, you had dealt with the issue of 
the projected amount of money that would be available to Iran 
once the sanctions are lifted. My understanding is that most of 
that money is Iranian money in foreign accounts, frozen in 
foreign accounts. In that Iran's currency has lost about half 
its value over the past 3 years, was that factored into your 
estimate about the amount of money which will be available to 
Iran once it comes back to them?
    Secretary Lew. Congressman, I was addressing the specific 
issue of their reserves that are tied up overseas because of 
sanctions.
    We have done enormous damage to their economy. It will take 
them years to get back to where they would have been if 
sanctions had not been put in place, even if they got that 
money back. So they are not looking at breaking out into a 
period of great growth.
    And I think the challenge here is we have a pretty good 
understanding of what the pressures in Iran are right now. We 
can't know with certainty what decisions they will make. We 
know that, for example, just to get their oil fields up and 
running properly would require an investment of $100 billion to 
$200 billion.
    So I can't tell you how much of the $50 billion they will 
apply to their oil fields, but you have to assume that one of 
the things they are going to want to do is get their economy 
moving. So that money will quickly be used for a lot of 
purposes.
    I wish I could say that zero, not a nickle, would not go to 
malign purposes. But even with the current sanctions regime, 
they are finding the money to put into malign purposes. The 
question is, do they do it with or without a nuclear weapon?
    Chairman Royce. Mike McCaul of Texas.
    Mr. McCaul. Thank you, Mr. Chairman.
    Secretary Kerry, the countries that know Iran the best fear 
this agreement the most. And the reasons why are for the 
following reasons: It lacks the necessary verification measures 
to ensure Iran does not cheat. It lifts the restrictions on 
Iran's intercontinental ballistic missiles, which the Ayatollah 
himself said they will mass-produce.
    The international sanctions on Iran's Revolution Guard 
Corps, its terror arm, will be relieved, and the European 
sanctions. This still could also, in my judgment, spark a 
nuclear arms race in the Middle East, as the Saudis told me 
when I recently visited there.
    And, as chairman of the Homeland Security Committee, what 
concerns me the most is this deal frees up hundreds of billions 
of dollars to the world's leading state sponsor of terrorism. 
Susan Rice, the President's National Security Advisor, said,

        ``We should expect that some portion of that money will 
        go to the Iranian military and could potentially be 
        used for the kinds of bad behavior that we have seen in 
        the region.''

    And now you are asking this Congress to endorse an 
agreement that the President's own National Security Advisor 
admits will spread terror in the region.
    Finally, Iran's Deputy Foreign Minister confirmed,

        ``We will provide weapons to whomever and whenever we 
        consider appropriate, and we will buy weapons from 
        wherever we can.''

    Chairman Royce and I sent a letter, sir, to you and the 
President of the United States, asking you to first submit this 
deal for consideration by the American people through their 
representatives, first, before this deal was submitted to the 
United Nations. But, instead, you went around the Congress and 
the American people, submitted this to the United Nations, and 
then China, Russia, and Venezuela got a chance to vote on this 
and approved this agreement before we have had a chance to 
deliberate.
    My question is this: If the Congress overrides the 
President's veto, what effect would that have on this deal? In 
other words, would it kill the deal?
    Secretary Kerry. Yes. We have said that many times.
    But let me come back to your earlier comment----
    Mr. McCaul. But this is a very important point. Will the 
U.N. and EU sanctions be lifted and that will relieve Iran of 
these burdens, or would it--if we override the President's 
veto, would it collapse the entire international deal?
    Secretary Kerry. The sanctions rely on the international 
community's participation to be able to enforce them. Our 
sanctions alone did not do the job alone. It wasn't until we 
went out and worked with other countries diligently--China, for 
instance, in order to persuade them not to buy X amount of oil; 
countries in the Middle East, to not be trading underneath the 
table or otherwise. There were a lot of different things 
necessary to make these sanctions work.
    If the United States unilaterally, through congressional 
decision, pulls away from this deal, they are not going to 
continue to apply those sanctions. They have no reason to. They 
are gone. They have already said they are gone.
    And, with respect to Saudi Arabia, there was an AP article 
the other day when Ash Carter visited Saudi Arabia. Saudi 
Arabia's Foreign Minister said Iran's nuclear deal appears to 
have the provisions needed to curtail Iran's ability to obtain 
a nuclear weapon, and----
    Mr. McCaul. Well, my time is limited. I have heard 
otherwise from the Saudis. But let me just--that is very 
important for us----
    Secretary Kerry. Well, that is a very public comment----
    Mr. McCaul. For us in the Congress to understand that if we 
override the President's veto it will stop this entire 
agreement, I think that is important for us, as Members of 
Congress, to know.
    Secretary Kerry. But what I am hearing here is that----
    Mr. McCaul. I have one more question. It has been debated 
by Secretary Lew and yourself that you did not approve the 
delisting of the Quds Force commander, the Iranian terror arm, 
from the European sanctions list. I am looking at the agreement 
right here. They are taken off the list, the European list, 
which is an agreement that was approved by you.
    The Quds Force, they killed Americans in Iraq and 
Afghanistan. What do I tell my Gold Star Mothers back home, 
whose children were killed by these Iranian forces, and tell 
them that this agreement will take them off the list?
    Secretary Kerry. Tell them that the United States of 
America will continue to keep the sanctions on him, 
specifically. He remains designated by our country, and we will 
not ever lift them and that that the United States will be 
pushing back on them.
    But, look, here is what I am hearing----
    Mr. McCaul. My final question is this, too.
    Secretary Kerry. Let me----
    Mr. McCaul. This secret deal between the IAEA and Iran----
    Secretary Kerry. There is no secret deal.
    Mr. McCaul [continuing]. We have never seen this. Are you 
going to present that to the Congress?
    Secretary Kerry. There is no secret deal. There is an 
agreement, which is the normal process of the IAEA, where they 
negotiate a confidential agreement, as they do with all 
countries, between them and the country. And that exists. We 
have briefed on it, we know it exists----
    Mr. McCaul. Are you going to present that to the Congress, 
sir?
    Secretary Kerry. We don't have it. It is not in our 
possession.
    Mr. McCaul. Have you seen it?
    Secretary Kerry. We have been briefed on it. I have not 
personally seen it.
    But can I just say something?You know, we hear these 
complaints. We hear, well, this agreement doesn't do this, it 
doesn't stop their terror, this agreement is going to give them 
some money, this agreement is going to do this. What this 
agreement is supposed to do is stop them from having a nuclear 
weapon. Now, I want to hear somebody tell me how they are going 
to do that----
    Chairman Royce. We are going to go to----
    Secretary Kerry [continuing]. Without this agreement. I 
would like to know----
    Chairman Royce. Mr. Secretary----
    Secretary Kerry [continuing]. How you are----
    Chairman Royce. We are going to go to Mr. William Keating 
of Massachusetts.
    The gentleman's time has expired.
    Secretary Kerry. They have an ability to go enrich again. 
What is the next step for the United States? Nobody is 
answering that question.
    Chairman Royce. Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman.
    I thank our witnesses for being here and their hard work.
    Three threads I am going to throw out there, and one of 
them--there have been reports in the media that have surfaced 
that among our European partners in this there was reluctance. 
And those reports centered on France, in particular.
    I am curious--and you can answer all three at the end--I am 
curious what issues that you can detail that they might have 
had qualms about, issues that weren't addressed. And I wanted 
you to comment on those reports.
    Number two, if you could generally comment about the 
cooperative actions of North Korea and Iran and how this might 
be impacted.
    Number three, we have had witnesses before on this issue, 
and they really were forceful, including Ambassador Burns, they 
were forceful in saying it is important that we send a strong 
military message, should any agreement go forward.
    And when it comes to, you know, sales and transfer of arms 
and other things--you began to speak to this, and I want to 
give you the time to address what military options, what are 
our strongest options that we still have as a country and how 
we can act on this.
    And I am going to give all three of you the remainder of my 
time so that you can answer some questions. And I won't be 
interrupting you.
    Secretary Kerry. Well, thank you, Congressman.
    Let me just say very quickly, because I want my colleagues 
to have a chance to catch up here, but on the European 
partners, France, in the final comments, when they signed on to 
the agreement, it was Bastille Day, July 14, and the Foreign 
Minister said that he thought this agreement was not only a 
strong agreement but he hoped it would be remembered in the 
same way, as having a positive impact for the world, the way 
Bastille Day was remembered as having the impact for the 
development of France. And they supported this agreement and 
voted for it.
    With respect to North Korea and Iran, this is a very 
different agreement from anything that ever existed with North 
Korea. There are about seven or eight different major 
differences between the North Korea agreement, not the least of 
which is North Korea pulled out of the NPT. And North Korea had 
already exploded a nuclear weapon, and Iran has not. There are 
many differences, and I would rather lay them out on the 
record, if we can. But this covers all possible nuclear-related 
activities. The agreement with North Korea did not. And we also 
have consent to the process of inspections. North Korea--I 
mean, there are a whole series of things.
    Finally, on the military option, I have said it again and 
again, everybody has, Ash Carter has reiterated it: President 
Obama is the only President who has actually commissioned the 
development of a weapon that can do what is necessary to deal 
with the facilities that are at risk. And he has not only 
commissioned its design, he has deployed it.
    And he has made it clear that Iran will not get a weapon, 
and he is prepared to use any option necessary in order to 
achieve that. But his preferred option is the one he is 
pursuing here, which is a diplomatic solution and which 
resolves this issue in a way that avoids the conflict that some 
people seem to be not even addressing, which would be almost 
inevitable as a consequence of not accepting this deal.
    Ernie?
    Secretary Moniz. Well, in terms of the first question about 
the dynamics with the EU or the other partners in general, 
first of all, on the nuclear dimension side, I should emphasize 
that I have talked about our team, but every one of the six 
countries had technical experts involved. And they had very 
robust discussions. We did not share our own classified 
calculations but made sure we were coming out in the same 
place. And, to be honest, in many areas, we pushed the 
envelope; in some areas, they pushed the envelope.
    And the good news is I think we all came out of this very 
satisfied that the technical dimensions accomplished the job of 
blocking nuclear-weapons pathways. There are some specific 
examples one could give, in terms of additional infrastructure 
removal from centrifuge places in both Natanz and Fordow, in 
terms of 20-percent uranium issues. But these were very robust, 
and I think all six countries feel very, very confident in our 
conclusions.
    Secretary Lew. Congressman, I think that, on the sanctions 
side, we have very different systems here in the United States 
than the EU. And the questions that we are getting on IRGC kind 
of underscore the fact that we need to look at our system and 
their system and understand that they are different.
    They are not delisting the IRGC for terrorist activities. 
If they do, at the end of phase 2, delist for nuclear, the 
terrorist sanctions still stays in place. So I think people 
looking at the document ought to understand what is actually 
going to be in place after it is in effect. And I think 
cooperation with the Europeans on this requires that we not 
distort what they are doing. They are not taking the IRGC off 
of their terrorist list.
    Chairman Royce. Judge Ted Poe of Texas.
    Mr. Poe. Thank you, gentlemen.
    I have received numerous questions from people in Texas, 
and I will submit those for the record. They are pretty simple 
questions, but I will submit those for you to answer.
    Secretary Kerry, this question is for you. Following up on 
Chairman McCaul's comments about the secret deal, Secretary 
Rice said that she has seen this deal with the IAEA and that it 
will be shared with Congress. So if she has seen it, have you 
seen it?
    Secretary Kerry. I don't believe that Susan Rice, the 
National Security Advisor, has seen it. I think she----
    Mr. Poe. She said she did 6 days ago. She said 6 days ago 
she seen it and reviewed it----
    Secretary Kerry. Well, I don't know that she----
    Mr. Poe [continuing]. And that Congress will get to see it 
in a classified session. My question is, have you seen it?
    Secretary Kerry. No, I haven't seen it. I have been briefed 
on it, and----
    Mr. Poe. But you haven't read it. You haven't seen it.
    Secretary Kerry. No.
    Mr. Poe. Let me ask you this----
    Secretary Kerry. We don't discuss it. It is in the 
possession of the IAEA.
    Mr. Poe. [continuing]. Are you going to read it?
    Secretary Kerry. We don't have access to the actual 
agreement. Or, at least, I don't.
    Mr. Poe. But Secretary Rice has access to it, but you don't 
have access to it.
    Secretary Kerry. I don't know about that.
    Mr. Poe. Well, that is just what she said. I am just going 
on what she said.
    Is the policy of the United States still that Iran will 
never have nuclear weapons?
    Secretary Kerry. Yes.
    Mr. Poe. Is it the policy of the Ayatollah, if you can 
answer for him, that Iran wants to destroy the United States? 
Is that still their policy, as far as you know?
    Secretary Kerry. I don't believe they have said that. I 
think they have said ``Death to America'' in their chants, but 
I have not seen a specific----
    Mr. Poe. Well, I kind of take that to mean that they want 
us dead. That would seem like that would be their policy. He 
has said that.
    You don't think that is their policy? I am not mincing 
words. Do you think it is their policy to destroy us?
    Secretary Kerry. I think they have a policy of opposition 
to us and of great enmity. But I have no specific knowledge of 
a plan by Iran to actually destroy us.
    I do know that the rhetoric is beyond objectionable. I know 
that we, you know, are deeply concerned with Iran's behavior in 
the region, deeply concerned with their past activities, which 
is why President Obama felt----
    Mr. Poe. Reclaiming my time. I got your answer. I am going 
to ask another question.
    Secretary Kerry [continuing]. That it is----
    Mr. Poe. I am reclaiming my time, Senator. Thank you--
Secretary.
    We have heard a lot of comments about----
    Secretary Kerry. But if they did want to destroy us, they 
would have a much better shot of doing it if they had a nuclear 
weapon.
    Mr. Poe. But you don't know if it is their policy or not. 
That is the question, and that is your answer.
    Next question: Is it our policy or belief that, after the 
deal, whether the deal is approved or not, do we have a policy 
in the United States that we want, expect, desire a regime 
change by the people of Iran to have their own say, free 
elections? Weigh in on our policy toward a regime change in 
Iran.
    Secretary Kerry. Well, as you know, Congressman, President 
Obama was very outspoken with respect to support for 
transformation in Iran around the time of the elections.
    Our policy today is specifically focused on pushing back on 
their activities within the region that destabilize the region, 
threaten Israel, threaten our friends and allies. And that is 
specifically where we are gearing up to take a specific set of 
steps that will define a new security alliance for the region.
    Mr. Poe. Okay. So we want to push back. We want them to 
stop their naughty ways. But regime change--I mean, I 
personally think the best hope for the world for safety, 
including in Iran, is for the people of Iran to have free 
elections and to let the people of Iran really decide who their 
government should be in a free setting.
    Let me ask you another question, Secretary Moniz. This 
might be my last question. If I understand the agreement, the 
oil sanctions, which is prohibiting Iran from exporting oil, 
that is going to be lifted. Is that correct?
    Secretary Moniz. Well, if sanctions are relieved, that 
would be among those relieved, correct.
    Mr. Poe. Under this deal, that is one of the ones that will 
be relieved.
    Secretary Moniz. If the sanctions are relieved, yes, and 
then----
    Mr. Poe. Okay.
    Secretary Moniz [continuing]. Then oil export.
    Mr. Poe. Now, being the Secretary of Energy, let me ask you 
this: Why is the United States lifting the sanctions on the 
exporting of oil on Iran, but we are not lifting the sanctions 
on America exporting crude oil, like Texas sweet crude?
    Secretary Moniz. We don't have sanctions on oil exports. We 
have a congressional law that in the 1970s restricted exports.
    Mr. Poe. But do you support----
    Secretary Moniz. Secondly----
    Mr. Poe. Do you support that law being changed?
    Secretary Moniz. Secondly----
    Mr. Poe. Do you support that law being changed?
    Secretary Moniz. Secondly----
    Mr. Poe.You know that is the question. Do you support the 
law being changed?
    Chairman Royce. The gentleman's time has expired, and we 
can get that for the record.
    Mr. Poe. Okay. I will put that in writing. Thank you.
    Secretary Kerry. Mr. Chairman, point of----
    Chairman Royce. We need to go to David Cicilline of Rhode 
Island.
    Secretary Kerry. Mr. Chairman, just a point of personal 
privilege here.
    I wanted to make sure that we knew what we were talking 
about and the record properly reflects this. Susan Rice's quote 
is:

        ``We know their contents, and we are satisfied with 
        them. We will share the contents of those briefings in 
        full and classified sessions with Congress.''

    She has not seen them. She has been briefed on them.
    Mr. Poe. And that question----
    Chairman Royce. And we will, of course--reclaiming my time, 
we are still looking forward to that briefing.
    But now we must go to David Cicilline of Rhode Island.
    Mr. Cicilline. Thank you, Mr. Chairman.
    Thank you to the witnesses not only for being here today 
but for the ongoing conversations.
    And I want to particularly thank the administration for 
really making sure that Members have all the information that 
we need as we navigate through a very sober decisionmaking 
process with enormous consequences.
    And I thank all three of the Secretaries for their service.
    I have a series of questions that I am not asking to 
support a conclusion that I have already made but actually to 
help me in arriving at the right conclusion. So I would like to 
set forth the questions, recognizing you can answer some, and, 
on the others, if you would submit in writing, I would 
appreciate it.
    The first is on Parchin. The agreement says that the IAEA 
will provide progress reports by October 15 and then the final 
assessment by December 15. We know, obviously, that this is a 
site where there was nuclear testing of some kind.
    My first question is, is it at all concerning that this 
final conclusion, or the set of final conclusions, might inform 
in a substantive way whether we should go forward? And is there 
any concern that there will be something revealed in this 
report that would impact whether or not Iran is in compliance 
from the outset?
    That is the first question. Because we will be asked to 
vote on and the first round of sanctions relief will be 
provided before, obviously, that December 15 date.
    My second question is, it has been argued that we are in 
the same position in 15 years, with no options off the table, 
except some have argued the economy of Iran will be fortified, 
that they will be able to withstand sanctions in an enhanced 
way, and that the ability to reassemble this international 
coalition will be very difficult as countries will be doing 
business and reengaging with Iran.
    Do you agree with that assessment? And do you just conclude 
that that is a sensible tradeoff, as some have suggested?
    Third, you concluded, Mr. Secretary, that this agreement 
makes the world, our allies, including Israel, and the region 
safer. And I have no doubt that you have concluded that that is 
correct based on your best assessment. If you would just 
provide for us, kind of, some thinking of why it is that the 
current Israeli leadership does not see it that way, you know, 
as they, obviously, sort of, have come to a different 
conclusion. Why do you think that is?
    Four, after 15 years, Iran, most have suggested, is a 
nuclear threshold state but that they must negotiate 
comprehensive safeguards again with the IAEA, whether or not, I 
know there has been some discussion, have you seen those. But 
do we have some ability to influence what that agreement is? Do 
we have any ability to influence its content or to monitor 
their compliance going forward--that is, between Iran and the 
IAEA?
    Fifth, what is the likelihood of an international consensus 
remaining if the deal is rejected? What happens if the deal is 
rejected?
    Some have suggested, actually, some top-level Israeli 
officials have suggested Iran will comply with the terms of the 
agreement, will get relief from our other partners, and the 
U.S. will be isolated. Others have suggested that Iran will 
rush toward the development of a nuclear weapon with no 
constraints.
    Is there any reason to believe that Iran would comply with 
the terms of the deal if it is rejected, as some have 
suggested, and not proceed quickly to a nuclear weapon?
    Sixth, if weapons are transferred to Hezbollah during the 
5-year period, which is a violation of the U.N. resolution but 
also a violation of the Interim Agreement, would that 
constitute a violation and cause snapback in these intervening 
5 years, if arms are sold to Hezbollah?
    And, finally, what will happen to the U.N. Security 
Resolution, specifically the lifting of the arms embargo and 
the ICBM provisions, if Congress does not approve the 
agreement? Do those remain intact?
    And the last question, Secretary Lew, is for you. The JCPOA 
describes a process in which noncompliance with the agreement 
might result in sanctions snapping back at the U.N., but this 
process will likely only work in the case of major violations 
of the agreement. How will the administration treat minor 
violations?
    And I would invite you to--maybe we will start with you, 
Secretary Lew. But the ones that you obviously can't get to, I 
would very much appreciate your answers. And thank you for the 
work that you have done, gentlemen.
    Secretary Lew. Well, thanks, Congressman. I will start with 
the snapback question.
    We have reserved the right to snap back in whole or in 
part. Obviously, if there is some small technical violation, 
that will not bring back the whole sanctions regime.
    I think that the goal would be to get them back into 
compliance. If there is a need to make it clear that violations 
that are small will get a response, we have the option of 
putting some of the smaller sanctions back into place.
    If there is a major violation, we have the option of 
putting in force all of our unilateral sanctions and ultimately 
going back to the U.N. for the international sanctions, as 
well. We have all the authority we need to do that.
    Chairman Royce. Matt Salmon of Arizona.
    Mr. Salmon. Thank you.
    Mr. Secretary, you have said no country would accept 
anytime, anywhere inspections. But I would submit that Iran is 
not a normal country. In fact, Iran is a terrorist state under 
heavy international sanctions. It neither is the moral nor the 
geopolitical equal of the United States or our negotiating 
partners, and I think we have to stop treating it like one. It 
aspires to be a regional power.
    The U.S. right now is the only world superpower. And my 
question: Is this really the best deal that we could get, given 
the fact that we seem to have most of the cards and we have had 
most of the cards since these sanctions were imposed?
    Secretary Moniz, you say the deal includes anytime, 
anywhere, in the sense of a well-defined process and a well-
defined end date. But all of that depends on Iran acting in 
good faith. We shouldn't make that assumption, because Iran has 
been stonewalling the IAEA on the military dimensions while 
claiming to cooperate for years. They are doing that as we 
speak.
    First, the process is not just 24 days. If Iran balks, it 
is a minimum of 24 days. Before the clock even starts, the IAEA 
has to tell Iran its concerns about a particular site, and Iran 
then is supposed to provide an explanation. But there is no 
time limit. Does anyone believe that Iran will respond 
immediately or the back-and-forth discussions or negotiations 
won't take place?
    Only after these delays and the high barriers are taken 
care of, at best maybe, can the IAEA make a formal request and 
start the 24-day clock. But at the end of the 24 days, there is 
no punishment if Iran says no. Instead, the matter goes to the 
dispute resolution mechanism, which has lots of opportunity for 
delay and more barriers.
    Does anybody believe that the P5+1, not this administration 
and certainly not the Europeans, will derail the entire 
agreement by imposing sanctions and restarting Iran's nuclear 
program just because Iran is denying access to one sensitive 
site?
    More likely, there will be overwhelming pressure for a 
compromise, one that is no more substantive than what is in the 
final agreement. Kicking the can down the road is always one 
option. It has worked in Iran for years.
    I think all of this led CIA former Director Michael Hayden 
to warn in front of this committee that the deal has taken 
inspections from the technical level and put it at the 
political level. And I just think that is a formula for chaos, 
obfuscation, ambiguity, and doubt.
    My question, besides the fact that I think that, on the 24 
days, we are kidding ourselves if we think that the 24 days is 
the total length of the deal--I think that it could be much, 
much longer. And I would like to know how, ultimately, we are 
going to deal once we do find infractions.
    My second question is, of all the sanctions to be lifted in 
the Iran nuclear agreement, few are more significant than those 
against a shadowy $100 billion network of foundations belonging 
to the Islamic Republic's Supreme Leader, Ali Khamenei.
    The U.S. delisting the headquarters for the Execution of 
Imam Khomeini's Order, also known as EIKO, will pump tens of 
billions of dollars into the Supreme Leader's personal coffers, 
helping him secure his grip on the Iranian people and 
bolstering Iran's ability to promote its agenda abroad. In 
fact, it is estimated he will gain access to as much as $95 
billion.
    The U.S. Treasury designated EIKO and 37 subsidiaries in 
June 2013, noting its purpose is to generate and control 
massive off-the-books investments, shielded from the view of 
the Iranian people and international regulators.
    Secretary Kerry, please explain why EIKO will be de-
designated.
    Secretary Kerry. Well, Congressman, I am going to turn to 
Ernie for the first part of that because it is important to 
understand these 24 days. You are, I say respectfully, 
misreading how the 24 days--by the way, the 24 days is an 
outside period of time. It could be less than that. It is very 
possible it could be in 18 days or something.
    But, Ernie, why don't you discuss that.
    Secretary Moniz. Well, first, you started out with this 
question of Iran being unique in terms of verification. That is 
exactly why we have a verification system in this agreement 
that is unparalleled. This goes beyond what anyone else has 
accepted exactly because of the distrust of Iran built up from 
previous behavior.
    With regard to the 24 days, first of all, the IAEA can cut 
that off anytime by declaring their request for access, and 
then the 24-day clock runs. It is not the beginning of dispute 
resolution; it is the end of dispute resolution. And, in fact, 
at that point, they are in material breach.
    Now, you asked about, would there be a response if it was 
``only one site''? Well, I want to turn it over now to my 
colleagues, but I want to emphasize that, in the snapback, it 
says ``in whole or in part.'' So a graded response is possible.
    Chairman Royce. We are going to go to Mr. Alan Grayson of 
Florida.
    Mr. Grayson. Mr. Secretary, I have 5 minutes. I have 10 
short questions. I am hoping for 10 short answers.
    Will implementation of the agreement increase Iran's 
support for terrorism?
    Secretary Kerry. You want these sequentially?
    Mr. Grayson. Yes.
    Secretary Kerry. We have no way to know. I presume in some 
places, possibly. Only in the sense that they are committed to 
certain things that we interpret as terrorism, they don't, and 
we are going to continue to conflict on those issues.
    Mr. Grayson. All right.
    If the agreement is implemented, will Iran, in fact, allow 
inspections at all of its military sites?
    Secretary Kerry. Well, they have to. If they don't, they 
are in material breach of the agreement, and we will snap back 
the sanctions or take other action if necessary.
    Mr. Grayson. If the agreement is implemented, do you 
suspect or do you think that there is a significant risk that 
Iran will cheat on the agreement and develop a nuclear weapon 
secretly?
    Secretary Kerry. I don't think they are able to develop a 
nuclear weapon secretly because our intelligence community 
tells us, with the regime that we have established here, it is 
physically impossible for them to create an entirely covert 
secondary fuel cycle.
    And we have a sufficient, intrusive inspection mechanism 
and capacity on their fuel cycle that they can't do it. You 
can't make a bomb at 3.67-percent enrichment for 15 years. You 
can't make a bomb with 300 kilograms of the stockpile for 15 
years.
    You can't make a bomb if you can't go enrich and move 
forward without our knowing it. And we have submitted and we 
believe with clarity that we will know what they are doing 
before they can do that.
    Mr. Grayson. If an agreement is implemented, is there a 
significant risk that Iran will adhere to it for a year, let's 
say, then pocket the $50 billion and then violate the agreement 
and go ahead and build a bomb?
    Secretary Kerry. Again, they can't do that, because the red 
flags that would go off, the bells and whistles that would 
start chiming as a result of any movement away from what they 
have to do.
    They have to live for 15 years under this extraordinary 
constraint of a limitation on the number of centrifuges that 
can spin; on a limitation in their R&D; on 24/7 inspections; on 
day-to-day accountability, with live television, with respect 
to their centrifuge production; and so forth. So it is not 
possible for them during that period, in 1 year, 2 years, 5 
years, to sort of make this decision and stiff us.
    And if they did in some way, if they just radically said, 
you know, we are going to change this whole deal and we are 
breaking out of here, then we have snapback of all the 
sanctions with the full support of the international community, 
which would then be absolutely in agreement that they have to 
do it. And we have the military option if that was necessary.
    Mr. Grayson. But, briefly, to follow up, isn't it true in 
that scenario that they would then have $50 billion in their 
pocket that they wouldn't otherwise have?
    Secretary Kerry. No. I doubt that after 1 or 2 years they 
would. They would have investments in their economy, and they 
would be moving, but, I mean, you have to look at this in the 
real world.
    Here they are, trying to attract investment from France, 
Germany, China, Russia, Britain, all kinds of countries. Is it 
your presumption that a country that has destroyed its 
stockpile, reduced its centrifuges by two-thirds, put concrete 
in its calandria, totally stripped the ability to do fissile 
material at Fordow, and is now seeking investment and trying to 
build its economy, with a population of 50 percent of the 
country under the age of 30, who want jobs in the future, is it 
your presumption that they are just going to throw this all to 
the wind and go create a nuclear weapon after saying, ``We will 
strip our program down,'' and won't? I don't think it is going 
to happen.
    Mr. Grayson. What about after 15 years? If the agreement is 
implemented, is Iran, in fact, likely to build a nuclear weapon 
after 15 years, at the end of the deal?
    Secretary Kerry. All I can say to you is that they can't do 
it without our knowing what they are doing. Because, after 15 
years, they have to live by the Additional Protocol, they have 
to live by the modified Code 3.1, they have to live with 
inspectors. One hundred and fifty additional inspectors are 
going to be going into Iran as a consequence of this agreement. 
And those inspectors are going to be given 24/7 access to 
declared facilities.
    So, if Iran suddenly starts to enrich more, which we will 
know, all the bells and whistles go off. The international 
community would be all over that with questions and restraints.
    Mr. Grayson. All right.
    My time is almost up, and I want to ask you this----
    Secretary Moniz. May I just add that this is the agreement 
that codifies a permanent ban on nuclear weapons in Iran, and 
we have to take----
    Mr. Grayson. Thank you, Mr. Secretary.
    Secretary Moniz. Okay.
    Mr. Grayson. I do want to ask this one additional question. 
And I had four more, but that is the way it goes.
    Tell me exactly what you expect will happen if the 
agreement is rejected. Specifically, there has been some 
suggestion that Iran will adhere to it anyway and that----
    Secretary Kerry. Iran can't adhere to it anyway.
    Mr. Grayson [continuing]. Sanctions will remain in place 
anyway.
    Secretary Kerry. I have heard that.
    Mr. Grayson [continuing]. If the agreement is rejected. 
Explain to me what you expect to----
    Secretary Kerry. I actually heard that for the first time 
last night when I met with an Israeli friend who suggested that 
might be possible. It is physically impossible.
    Mr. Grayson. Explain why, please.
    Secretary Kerry. Well, I will tell you why. Because in the 
legislation that you have passed, in which you have given 
yourself the ability to vote, you have also put in an inability 
for the President to waive the sanctions. So there will be no 
waiving of the sanctions.
    So there is no way for the deal to work, because our 
lifting of sanctions is critical to the ability of other 
countries to invest and work and critical, obviously, for Iran 
to get any money. So nothing works for them unless this deal is 
accepted.
    Chairman Royce. We have a lot of members who still want to 
ask questions. We need to go to Tom Marino of Pennsylvania.
    Mr. Marino. Mr. Secretary of State, we all know what Iran 
has done as far as giving weapons to terrorists to do Iran's 
dirty work. And what will stop Iran from giving nuclear 
material or even more weapons to terrorist organizations?
    And how is a nuclear Iran going to make the world and the 
United States a safer place? And, more particular, how is a 
nuclear Iran going to make American citizens feel safer?
    Secretary Kerry. Well, the opposite of your question is to 
suggest that somehow you or we can prevent them from having any 
nuclear program at all.
    Mr. Marino. Okay.
    Secretary Kerry. Now, you all have a responsibility to show 
us how that is going to happen.
    Mr. Marino. I am going to show you how that is going to 
happen.
    Secretary Kerry. President George Bush----
    Mr. Marino. I am going to show you right now how that is 
going----
    Secretary Kerry. President George Bush----
    Mr. Marino [continuing]. To happen, Mr. Secretary. You have 
answered my question. I am going to show you how that is going 
to happen.
    I am going to take Secretary Lew's words. The sanctions 
have crippled Iran. If we ratchet them up and get our allies to 
ratchet those sanctions up, you can bring Iran to its knees, 
where it cannot financially function. That is how to do it, 
because it----
    Secretary Kerry. Congressman, let me----
    Mr. Marino [continuing]. Is proved that it has been done.
    Secretary Kerry. Congressman, let me just tell you----
    Mr. Marino. Please.
    Secretary Kerry [continuing]. I suggest--I really suggest, 
very respectfully, that you go spend some time with the intel 
community. Ask the people who have spent a lifetime following 
Iran very closely whether or not they agree with your judgment 
that an increase in sanctions will, in fact, bring Iran to its 
knees. They do not. They do not believe there is a capitulation 
theory here.
    And you will not sanction Iran out of its commitment to 
what it has a right to. Iran is an NPT country. There are 189 
of them----
    Mr. Marino. And we have a right to protect the American 
citizens from this disaster of this country having nuclear 
power.
    Secretary Kerry. That is exactly--Congressman----
    Mr. Marino. Sanctions have worked. Are you going to retract 
these----
    Secretary Kerry. Congressman----
    Mr. Marino [continuing]. Statements made by Secretary Lew 
and anyone else that says it has crippled them, it will take 
years for them to get servicing again?
    Secretary Lew. Congressman, if you are going to quote me, 
let me speak for myself.
    Mr. Marino. No. I quoted exactly what----
    Secretary Lew. No.
    Mr. Marino [continuing]. You said.
    Secretary Lew. No.
    Mr. Marino. Yeah, it----
    Secretary Lew. Congressman----
    Mr. Marino [continuing]. Crippled Iran, and it will take 
them years to recover.
    So if we upped----
    Secretary Lew. But the other part of what I said, 
Congressman, is that the reason it was crippling is that we had 
international cooperation.
    We have worked very hard to get that international 
cooperation. The parties that we worked with reached an 
agreement here. If we walk away from it----
    Mr. Marino. Look who we worked with. We worked with China, 
and we worked with Russia, the people who want Iran to be in 
that position because it jeopardizes the United States.
    Secretary Lew. But, Congressman, the power of our sanctions 
is not going to have the effect----
    Mr. Marino. I disagree with you.
    Secretary Lew [continuing]. You want or that we want.
    Mr. Marino. Economists disagree with you. Individuals that 
I have read article after article on disagree with you.
    Secretary Kerry. But, Congressman, as we have said again 
and again, and I want to repeat it now, we are absolutely 
committed that Iran will never get the material for one bomb--
not for one bomb.
    Mr. Marino. Okay, but you didn't answer my original 
question, Mr. Secretary. My original question is, how is that 
going to make the United States citizens safer?
    Secretary Kerry. Let me tell you. I will tell you exactly 
how it makes United States citizens safer. Because if Iran 
fully implements the agreement that we have come to, Iran will 
not be able to make a nuclear weapon.
    And we have created an agreement which has sufficient level 
of intrusive inspection and verification that we are confident 
in our ability to be able to deliver on preventing them from 
having enough fissile material for the one bomb.
    Now, mind you, we started in a place where they already had 
enough fissile material for 10 to 12 bombs. We have already 
rolled that back, and that made America safer. By the way, it 
also made Israel and our friends and allies in the region 
safer. Everything that we have done thus far in the Interim 
Agreement, which has been in force for 2 years, has made the 
world safer.
    Mr. Marino. Okay, sir, I am going to reclaim my time----
    Secretary Kerry. But the alternative----
    Mr. Marino [continuing]. Because you are repeating----
    Secretary Kerry. No, I am----
    Mr. Marino [continuing]. Statements that you have made. I 
understand, but I have 40 seconds left.
    Secretary Kerry. If you kill this deal----
    Mr. Marino. I hope that you are right.
    Secretary Kerry [continuing]. That is not making Americans 
safer.
    Mr. Marino. I hope you are right. Because, if not, you, the 
executive branch, and Congress is going to have a disaster on 
our hands. And we need to be accountable to the American 
people.
    Thirty-two seconds. I want to ask an important question. 
Secretary Kerry, this is an extremely important topic for the 
future of this country's security and the safety of the 
American people as well as our allies in the Middle East.
    I first want to ask you a simple yes-or-no question. In 
accordance with the Office of Management and Budget as well as 
the National Archives and Records Administration directives, 
along with State Department policy, have you ever used a 
nongovernment and personal email account to conduct official 
business?
    Secretary Kerry. No. I conduct my business on a government 
account.
    Chairman Royce. We need to go to Dr. Ami Bera of 
California.
    Mr. Bera. Thank you, Mr. Chairman.
    And I want to thank the witnesses.
    I am going to go through a series of questions as I try to 
make my decision with regards to this deal.
    Secretary Kerry, multiple times you have said this 
negotiation had one objective, to make sure they cannot get a 
nuclear weapon.
    Secretary Moniz, you are the expert here. In your opinion, 
do you believe this deal makes it less likely within the next 
decade, next 15 years, over a lifetime, for Iran to obtain a 
nuclear weapon?
    Secretary Moniz. Far less likely.
    Mr. Bera. Okay. Great.
    I don't trust Iran. Secretary Kerry, you have said multiple 
times there is nothing in this agreement that is based on 
trust.
    Secretary Lew, you have said there will be no immediate 
sanctions relief. Is that an accurate statement?
    Secretary Lew. Sanctions relief will only come after Iran 
complies with all the measures to stop their nuclear program.
    Mr. Bera. And, in your estimation, is there enough in the 
verification regime in this deal that will allow us to----
    Secretary Lew. I would defer to Secretary Moniz, but I have 
been persuaded by everything I have read and seen that it is 
the toughest verification regime we have ever had.
    Mr. Bera. Is that correct?
    Secretary Moniz. Yes.
    Mr. Bera. And, Secretary Lew, there is no signing bonus.
    Secretary Lew. There is no signing bonus.
    Mr. Bera. Okay. Great.
    Moving on, then, Secretary of Defense Ash Carter is not 
here, but I will direct this to Secretary Kerry.
    In your opinion, would you say that Secretary Carter as 
well as our Joint Chiefs are satisfied with the ICBM provision 
of no missiles for 8 years, as well as the arms embargo for 5 
years, as the best--that they would be okay with that 
provision?
    Secretary Kerry. Yes.
    Mr. Bera. Okay.
    Moving on, Secretary Kerry, you have pointed out, in your 
time and history in the Senate, you were a very strong defender 
of Israel and had a strong record of support of Israel. In your 
opinion, do you believe this deal makes Israel safer or less 
safe?
    Secretary Kerry. I am absolutely convinced beyond any doubt 
this deal makes Israel safer, and the region and the world.
    Mr. Bera. And would you say that President Obama shares 
that opinion?
    Secretary Kerry. Yes.
    Mr. Bera. Okay.
    Secretary Moniz, we have talked a lot about the 24-hour 
framework. Is it accurate that you believe, as an expert here, 
that within that 24-hour framework we will be able to detect 
any activities, nuclear activities, et cetera?
    Secretary Moniz. Well, the 24----
    Mr. Bera. I am sorry. Twenty-four days.
    Secretary Moniz. For the 24-day access to undeclared sites 
that work with nuclear material, I feel quite confident that we 
can detect, yes.
    Mr. Bera. That there will be no cheating, that we will be 
able to detect it within that 24-day period.
    Secretary Moniz. I want to emphasize ``work with nuclear 
materials.'' Other work, non-nuclear work, might be a little 
more difficult.
    Mr. Bera. Okay. Great.
    Secretary Lew, if, in fact, you know, there is no nuclear 
activity going on and Iran is complying with the terms of this 
deal, I do have serious reservations that they will continue to 
fund terror groups, fund organizations that destabilize the 
region. And that is worrisome, obviously.
    In your opinion, do you believe that if we acted in a 
unilateral manner to impose new sanctions or reimpose existing 
sanctions, not based on breaking the nuclear deal but based on 
other activities, that we would be able to impose sanctions 
strong enough that they are felt in Iran?
    Secretary Lew. Congressman, we totally agree that their 
actions on terrorism and regional destabilization are and 
continue to be an area of concern. We have been putting 
sanctions in place. We have reserved the right to put even 
parties who were delisted on the list again if, in fact, they 
are violating terrorism or regional destabilization provisions.
    I think that we have powerful tools. I think that the world 
knows we mean to use them. And I believe that our credibility 
in doing it has to be for real. It has to be that we are 
listing people for reasons of terrorism and regional 
destabilization.
    Mr. Bera. And you feel we have the tools, if we have to 
do----
    Secretary Lew. Yes.
    Mr. Bera [continuing]. This unilaterally, to make it----
    Secretary Lew. We definitely have powerful tools.
    Mr. Bera. Okay. Great.
    I will actually yield back the remainder of any time.
    Chairman Royce. Thank you.
    We will go to Jeff Duncan of South Carolina.
    Mr. Duncan. Thank you.
    Secretary Kerry, there are still three or four Americans in 
prison in Iran. I put their pictures here to remind you of them 
today.
    I understand not using them as pawns in negotiations, but 
what should have happened is they should have been released as 
a precondition before ever sitting down with Iran for anything.
    And, with that, I will yield to Mr. DeSantis from Florida.
    Mr. DeSantis. Well, I thank the gentleman from South 
Carolina.
    Secretary Kerry, for these side agreements between the IAEA 
and Iran, can you at least confirm that one of the agreements 
is about the Parchin military site, the other one is about the 
possible military dimensions of Iran's nuclear program?
    Secretary Kerry. I believe there is just one basic 
agreement, which contains the approach to the PMD.
    Mr. DeSantis. So can you confirm that the Congress will 
not----
    Secretary Kerry. I am advised that--I think he has been 
more briefed than I have, but the two appendices, apparently.
    Mr. DeSantis. Two appendices. And is it your testimony that 
the Congress will not get to review those agreements before 
voting on----
    Secretary Kerry. No. Congress will be briefed on the 
contents of those agreements per what we know.
    Mr. DeSantis. But we will not be given the actual 
agreements to review, correct?
    Secretary Kerry. I don't believe you will get the actual 
agreement, Congressman.
    Mr. DeSantis. The problem with that, though, is that the 
Iran Nuclear Agreement Review Act that the Congress passed and 
that President Obama signed required the executive branch to 
provide Congress with all documents and specifically defined 
``all documents'' to include any side agreements. So the 
executive branch has a binding legal obligation under the Iran 
Nuclear Review Act to provide all documents----
    Secretary Kerry. Well, actually, we don't have a side 
agreement, so we are in compliance.
    Mr. DeSantis. It doesn't matter. The agreement----
    Secretary Kerry. The IAEA is an independent U.N. agency, 
and it makes an independent agreement under standard procedures 
with----
    Mr. DeSantis. And the Nuclear Review Act, with all due 
respect, applies to any agreement that Iran may have with any 
other parties, any related agreements, whether entered into or 
implemented prior to the agreement or to be entered into or 
implemented in the future. So if there is an agreement between 
Iran and the IAEA, under the Iran Nuclear Agreement Act, that 
needs to be provided to Congress.
    And so, if you are not in compliance with that act, how has 
the clock even started to run for the 60-day review period?
    Secretary Kerry. Congressman, I am not sure, legally, that 
the Congress of the United States has the power, powerful as it 
is, to be able to dictate to the IAEA a change in its 
procedures.
    Mr. DeSantis. That is not what we are doing. We passed a 
bill; the President signed it.
    Secretary Kerry. We don't have----
    Mr. DeSantis. It lays out the conditions before we would 
then have----
    Secretary Kerry. We don't have the agreement. We don't have 
the agreement.
    Mr. DeSantis. You are not going to request the agreement 
and bring it so that we can review it?
    Secretary Kerry. Congressman, we don't possess the 
agreement.
    Secretary Moniz. These are protocols worked out to satisfy 
the IAEA-Iran agreement on resolving the PMD----
    Mr. DeSantis. Which are very important issues, because we 
need to know the PMD, we need to know more about Parchin. We 
want to be able to evaluate the efficacy of the agreement that 
you guys have negotiated.
    Secretary Moniz. The IAEA will then be providing its report 
on December the 15th, which summarizes all that they have 
found.
    Mr. DeSantis. Which is after the window that Congress has 
to review the agreement, so we are not going to be privy to 
that information, and we are going to be asked to cast a vote 
on this.
    Let me ask you this, Secretary Kerry. You had alluded to in 
previous questioning about the ability that if Iran cheats we 
can snap back the sanctions. The problem, though, that I see is 
that, in the agreement itself, it says, Iran has stated that if 
sanctions are reinstated in whole or in part, Iran will treat 
that as grounds to cease performing its commitments under the 
JCPOA in whole or in part.
    So if you have a situation where Iran is doing incremental 
cheating and then there is a movement to then have the 
sanctions reimposed, if you do that, Iran is saying, well, 
okay, it is going to walk away from its commitments.
    And so, for me, it is structured in a way to allow Iran to 
get away with small violations, because the cost of going to 
actually impose the sanctions would be to blow up the deal that 
you guys have spent so much time negotiating.
    Secretary Kerry. Congressman, with all respect, that is a 
misread of the paragraph and a misread of what we have here.
    The paragraph was requested by Iran because they were 
afraid because Congress kept rattling its sabre about more 
sanctions. And so they said, well, what guarantee do we have, 
if we agree to this, that Congress isn't going to pass more 
sanctions on the same thing--or, excuse me, not ``more''--just 
take the sanctions they had and bring them back after we made 
an agreement?
    So that paragraph merely says that we are not going to--we 
agree that we are not just going to reimpose the same sanctions 
and put them back. It does not, as Secretary Lew has said, 
prevent us from bringing any other additional or appropriate 
sanctions for other things.
    And the sanctions language also says ``in whole or in 
part.'' So we are allowed, for any minor infraction--we are not 
facing this draconian choice of bringing the whole thing and 
risking the whole deal. We could bring a small amount.
    Also, remember, the reason Iran is coming to the table to 
make this agreement is they want the relief from the sanctions. 
And if, indeed, they were in flagrant violation, all of our 
friends who helped negotiate this are going to be standing with 
us, all in agreement that we have to put the sanctions back. 
And that is what----
    Chairman Royce. We must go to Grace Meng of New York.
    Secretary Kerry [continuing]. Generates the behavior from 
Iran.
    Chairman Royce. Grace.
    Ms. Meng. Thank you to all of you for being here, for your 
time and dedication to this important issue, and for spending 
so much time with us here in Congress, on the Hill, to discuss 
so many of our concerns.
    I want to ask, during the negotiations, did this law of the 
land, the Iran Nuclear Agreement Review Act, signed by 
President Obama and known to all parties of the negotiation, 
was it known to all the parties?
    Secretary Kerry. Well, obviously, the other parties became 
very aware of the fact that Congress was requiring a review 
period, and they were very concerned about it.
    Ms. Meng. And so I want to bring up one example of, during 
the Cold War, Congress played a very important role in the 
development of nonproliferation agreements dealing with nuclear 
weapons, specifically the Threshold Test Ban Treaty, which I 
know was a treaty, but we also have our law here.
    This treaty was initially blocked by the Senate because of 
concerns over Soviet compliance. The treaty was not submitted 
to the Senate for approval for 2 years after signing and wasn't 
ratified until after the U.S. and Soviet Union reached 
agreement 14 years later on additional provisions to enhance 
America's ability to verify Soviet compliance.
    So this all leads me to believe that Congress should be, 
and we are, and we have the ability and authority to compel a 
better deal, should it choose to disapprove of this one.
    What are the key differences between the JCPOA here and the 
Cold War examples, other than the fact that it was a treaty and 
there were multiple parties?
    Secretary Kerry. Well, one of the principal differences is 
that we have not had any engagement or any dialogue with Iran 
since 1979. And the lack of diplomatic relations, even, which 
is different from what we had with the Soviet Union, makes this 
a very, very complicated situation.
    So you have to take and analyze what is achievable here in 
the context of the threat, the nuclear program. And I believe, 
given the nature of the political system in Iran, the 
challenges with respect to their own politics, the notion that 
we are going to be able to go back to the table is just a 
fantasy. There is no latitude here.
    Because Iran came to this table with enormous suspicions 
about even engaging with the United States. There was a huge 
debate in the country about whether or not they should, whether 
or not we could be trusted, whether or not they thought this 
was worth the risk. And many people in the country suggested 
that we would not act in good faith.
    If, indeed, all of a sudden, we stand up in Vienna, seven-
nations-strong, embrace an agreement, the United Nations has 
supported the agreement, and we turn around and say, ``We are 
not going to perform,'' I think the intelligence community will 
confirm to you resoundingly we will not be back at the table, 
certainly in the near future, and I would think certainly not 
with this Iranian Government or leadership.
    Ms. Meng. One final question. You have also, obviously, 
asserted that, if Congress does disapprove, the international 
sanctions regime will fall apart, and Iran goes back to 2-
months breakout time.
    I understand that Russia and China's top priority and 
interests may not be the views of Congress here in the U.S., 
but if you can help me understand, what is the basis for the 
view that these two countries would also just allow Iran to 
fully violate the deal? Why wouldn't they hold Iran to the 
nuclear commitments set forth in the agreement?
    And if they allow them to do that, then why do we also 
believe that they will be there with us in any sort of snapback 
scenario?
    Secretary Kerry. Well, I think that Russia and China are 
very, very serious about the nonproliferation component of 
this, as serious as we are. Russia has agreed to export the 
spent fuel and process it in Russia in order to help make this 
work. China has accepted major responsibility to be the lead 
entity, with our co-chairmanship, on a committee that will work 
to redesign the Arak reactor in a way that is acceptable to all 
of us. And they have taken on major responsibility.
    So they both have a huge interest in the nonproliferation 
piece of this. But they both believe that the other components 
of the resolution, with respect to the arms and missiles, was 
thrown in as an add-on, as punishment, in effect, not because 
it referred directly to the nuclear part of the resolution or 
agreement. The resolution of the U.N. was a nuclear agreement. 
And, in that regard, I think they would have serious 
reservations--they did express serious reservations about 
continuing.
    Chairman Royce. We will go to Darrell Issa of California.
    Mr. Issa. Thank you, Mr. Chairman.
    I guess I have to be careful when I say ``Mr. Secretary,'' 
but, Secretary Lew, let's start with you.
    Were the sanctions, or are the sanctions that are in place 
as of today effectively curtailing both the money flow and the 
economy of Iran in a way that has brought them to the table?
    Secretary Lew. Congressman, I think that the sanctions have 
been very effective at slowing the rate of growth in Iran's 
economy, at making inflation high, unemployment high, and the 
exchange rate on their currency very unfavorable.
    I don't think it has stopped them from doing a lot of other 
bad things around the world. And they have maintained, even in 
a very difficult set of fiscal challenges, malign activities, 
which we have to stay focused on stopping even if we have a 
nuclear agreement.
    Mr. Issa. Okay. The question, though, Mr. Secretary, was, 
did it bring them to the table, or did they come out of just 
goodwill?
    Secretary Lew. No, I believe that the sanctions brought 
them to the table. And the sanctions were, in fact, designed to 
bring them to the table.
    Mr. Issa. Secretary Kerry, you would agree with that?
    Secretary Kerry. I do agree. I think the sanctions and 
other strategic designs. But I think, essentially, the 
sanctions are what crystalized their timing.
    Mr. Issa. And when I look at the sanctions that will be 
lifted under this agreement, I looked at--in the classified 
annex, but it wasn't the classified portion of it--a long list 
of ships and aircraft and banks that will receive the relief 
under this. I am sure you are both familiar with those 20, 30 
pages.
    The question I really have here--because I think we are all 
focusing on the nuclear deal, but I want to focus on Iran--an 
exporter of terrorism; a killer, directly and indirectly, of 
Americans; a kidnapper, indirectly and directly, of Americans 
since 1979.
    All of those sanctions that we are agreeing to lift, is 
there anyone that doesn't think that those sanctions and more 
are appropriate as long as they continue to export terrorism, 
kill Americans and others, and destabilize not one, not two, 
not three, but at least five countries throughout the Middle 
East?
    I will start with Secretary Lew, from a standpoint of those 
tools that we are lifting, those 40 pages or whatever, single-
spaced, a huge amount of things that will now be able to carry 
oil, move money, and so on, those are, most of them, equally 
effective in deterring or slowing their ability to export 
terrorism, aren't they?
    Secretary Lew. Congressman, as a class, we are lifting for 
relief from sanctions entities and individuals who were 
violating the nuclear provisions.
    Mr. Issa. Right, but those entities are banks, in many 
cases.
    Secretary Lew. Well, so a bank that was designated as a 
nuclear violator stays on. So Bank Saderat stays on the list.
    If there are institutions that are delisted that are 
relisted subsequently under other authorities that deal with 
terrorism, we have every right to do that. But I think that the 
delisting of nuclear parties is what you would expect if there 
is a nuclear agreement. The nuclear sanctions would go away, 
but other sanctions stay in place.
    Secretary Kerry. And they can be--again, Congressman, I 
want to emphasize that we share with everybody the concern 
about Iran's behavior within the region, and we have the 
ability to bring sanctions with respect to that behavior as we 
go forward.
    Mr. Issa. Well, let me just give you a hypothetical, and it 
is not a hypothetical without some thought. What if, at the 
same time as we don't reject this plan, we bring you a package 
of new sanctions? What if, in fact, Congress determines that 
the only way we can accept this risk is if we can truly, 
essentially, snap back now relative to their promise?
    Just the day after you signed this, they promised to 
destabilize Bahrain, to continue what they are doing in Yemen; 
obviously, their support for Hezbollah and Hamas, their support 
for the Assad regime, and the taking of both Lebanon and Syria.
    So, with that real threat, with that goal, with that 
continued activity, is there any reason that we should not 
either reject this agreement and/or include further sanctions 
in order to keep them from expanding their support for the 
murder of Americans and our allies around the world and the 
destabilizing of the Middle East, one that is leading to an 
arms race?
    Secretary Lew. Congressman, we have powerful tools to snap 
back sanctions----
    Mr. Issa. No, not snapback. I am saying today. Today, they 
are, in fact, doing all of this. What would you say about the 
fact that----
    Chairman Royce. We need to----
    Mr. Issa. Well----
    Chairman Royce. If the gentleman would suspend, we need to 
go to Lois Frankel of Florida----
    Mr. Issa. I just wanted him to answer the question I asked.
    Chairman Royce [continuing]. Simply because these junior 
members do not have sufficient time. And so, Lois.
    Ms. Frankel. Thank you, Mr. Chair.
    Thank you, gentlemen. Some quick followup questions and 
then some new ones.
    If new enrichment sites are detected under that 24-day 
rule, will those sites then become under a constant inspection?
    Secretary Kerry. If a new site emerges in this?
    Ms. Frankel. Yes.
    Secretary Kerry. Absolutely.
    Ms. Frankel. Okay. And could you tell me how many 
countries, other than the P5+1, are currently engaged in 
sanctions? And how long would you say that it takes to have all 
these sanctions in place to get Iran to the table?
    Secretary Lew. Congresswoman, I would have to go and check 
the number, but our sanctions and international sanctions are 
being honored around the world, so it is many, many countries. 
And it has taken us years to put that regime in place.
    And I would have to underscore really two points. One is, 
our unilateral sanctions are powerful, but the ability for them 
to really have an effect still requires cooperation. And the 
international sanctions wouldn't exist without cooperation. We 
have spent a lot of effort with countries for whom it is at 
substantial economic cost they have cooperated to try and stop 
Iran from getting a nuclear weapon.
    Ms. Frankel. How would a snap-back effect all those 
countries? It concerns me how you could actually get the snap-
back----
    Secretary Lew. I think, as Secretary Kerry said earlier, 
there is enormous unity in the goal of keeping Iran from 
getting nuclear weapons. If they violate the agreement, if, in 
fact, a snap-back is warranted because of nuclear issues, I 
think that both the international and the U.S. unilateral 
sanctions would, in fact, snap back.
    We are going to continue to prosecute our unilateral 
sanctions on things like terrorism, on things like regional 
destabilization and human rights, but they are obviously 
different regimes.
    Ms. Frankel. Once Congress, if we don't disapprove this 
agreement, if it goes forward, will the Congress, U.S. Congress 
have any role, any further role in this agreement, number one? 
Number two, can any President alter this agreement or refuse to 
abide by it in the future?
    Secretary Kerry. Well, Congress will always have a role, 
obviously, and you have made that crystal clear in a context of 
what we are doing here now. So, yes, I mean, there will be an 
ongoing role with respect to the enforcement, the 
implementation, our----
    Ms. Frankel. Will we have to vote on anything?
    Secretary Kerry. Afterwards?
    Ms. Frankel. To repeal sanctions.
    Secretary Kerry. Ultimately, yes. Ultimately, there is the 
Iran Sanctions Act itself. There is the lifting of sanctions. 
Ultimately, you would have to vote.
    Ms. Frankel. And if we don't do that pursuant to the 
agreement, are there any penalties on our part?
    Secretary Kerry. Actually then Iran is free to break the 
agreement because we will have broken it, and then all bets are 
off in terms of compliance.
    Ms. Frankel. Can a future President refuse to abide by the 
agreement?
    Secretary Kerry. Absolutely. A future President can. But it 
is our judgment that if this agreement is fully implemented and 
is working well, no future President is going to choose to do 
that because of the implications. If this is working, it is 
achieving our goal of not having a nuclear weapon in Iran.
    Secretary Lew. And just to be clear, the actual repeal of 
sanctions will be way down the road. It is not something that 
happens in the next year or 2. It is many, many years in the 
future, probably 8 or more years.
    Ms. Frankel. I want to get again to the troubling issue of 
the inspections. Are you saying that there is no limit to 
inspections by the IAEA, that it will go on forever? Did you 
say that?
    Secretary Kerry. Yes. What I am saying is there is a 
process, Congresswoman----
    Ms. Frankel. Excuse me. And who pays for that?
    Secretary Kerry. We pay a certain element of the budget. It 
is a U.N. agency. We represent a certain percentage of that 
budget, about 25 percent, and others contribute to it. We 
actually train all the inspectors. That is one thing that we do 
and do very effectively. But it is an independent entity other 
than that.
    Ms. Frankel. Excuse me. Is it this separate secret 
agreement that we don't see that is going to allow this 
continuation of inspections? That is what is not clear.
    Secretary Kerry. No. The continuation of inspections is 
under what is called the Additional Protocol. And the 
Additional Protocol is exactly that. It is an add-on----
    Ms. Frankel. That is what we don't get to see?
    Secretary Kerry. Yes. No, you can see, absolutely. You can 
see that. You can read every component of it. And I was sharing 
some thoughts with the committee earlier about the things that 
it empowers the IAEA to do. The kind of accountability is very 
in-depth and significant. That is what I was trying to point 
out. This is not some light set of requirements.
    Chairman Royce. We will go to Mr. Mo Brooks of Alabama.
    Mr. Brooks. Thank you, Mr. Chairman.
    Secretary Kerry, my questions require brief answers to 
comply with my 5-minute time limitation, and I hope you will 
cooperate in that context.
    Three months ago, Iranian Brigadier General Mohammad Reza 
Naqdi stated that erasing Israel off the map is non-negotiable. 
Do you believe his comments accurately reflect Iranian 
Government goals? Yes, no, or I don't know.
    Secretary Kerry. I think it accurately reflects some 
people's rhetoric and some people's attitude. But I don't think 
it is possible----
    Mr. Brooks. In the Iranian Government?
    Secretary Kerry [continuing]. I don't think it is possible 
for Iran to do that. And I think Israel has enormous capacity, 
obviously----
    Mr. Brooks. Okay. I didn't ask for all that other. I am 
just asking if you have a judgment as to whether his comment 
accurately reflects Iran's Government goals.
    Secretary Kerry. My judgment is it is not an implementable 
policy by Iran.
    Mr. Brooks. Okay. Well, less than 2 weeks ago Iranian 
Supreme Leader Ayatollah Ali Khamenei led a rally that was 
frequently punctuated by chants of death to America and death 
to Israel. Do you believe his comments accurately reflect 
Iranian Government goals? Again, yes, no, or I don't know.
    Secretary Kerry. I think they reflect an attitude and a 
rhetorical excess, but I see no evidence that they have a 
policy that is implementing that against us at this point in 
time.
    Mr. Brooks. Well, do you believe that Iran is the world's 
foremost sponsor of terrorism?
    Secretary Kerry. Yes.
    Mr. Brooks. And that they will use the conventional weapons 
made available by the Iran nuclear treaty to kill Americans or 
Israelis?
    Secretary Kerry. Well, they may. They may. And we have, as 
you know, responded to that from 1979, when they took over our 
Embassy, forward. We have put sanctions in place specifically 
because of their support for terror, because of their abuse of 
human rights----
    Mr. Brooks. Okay, I understand that. You have answered my 
question when you said, yes, they may.
    Next, is the Obama administration willing to use military 
force to prevent Iran from obtaining, building, testing, or 
using nuclear weapons?
    Secretary Kerry. Yes.
    Mr. Brooks. And what has Iran done in the past couple of 
years that causes you to believe Iran will abide by the Iran 
nuclear treaty or that Iran wants to become a responsible 
member of the international community?
    Secretary Kerry. The only thing that indicates to us a 
willingness to try to comply with this agreement is the fact 
that they have complied fully with the interim agreement for 
the last 2 years and that we have put in place such a strict 
set of consequences that it is deeply in their interest to 
comply if they have reduced two-thirds of their centrifuges, 
stripped their stockpile, put concrete in the calandria of 
Arak, emptied out Fordow. There is a lot of incentive therefore 
to fully comply with this agreement.
    Mr. Brooks. Okay. That focuses to a large degree on the 
nuclear side. What about the use of the conventional weapons 
and whether they will maintain their status as the world's 
foremost sponsor of terrorism?
    Secretary Kerry. We have serious concerns, which is 
precisely why we are engaged with our friends in the region. It 
is why I will be in Doha in a few days to meet with them. As we 
lay out the plans for pushing back against those activities, we 
will be engaging in Special Forces training, counterterrorism, 
counterinsurgency, counterfinance, a whole series of steps in 
order to empower all of us to do a better job of reducing those 
activities.
    Mr. Brooks. September 11, 14 years ago, proves Muslim 
fundamentalists are very willing to sacrifice their own lives 
in furtherance if their desire to kill non-Muslims and other 
foes. Given the religious zealotry of the Iranian Government, 
how confident are you that Iran will not use nuclear weapons to 
further death to America or death to Israel if Iran obtains 
nuclear weapons?
    Secretary Kerry. Well, they won't obtain a nuclear weapon. 
And I am confident that under this agreement and with President 
Obama's commitment, they are not going to secure a nuclear 
weapon.
    Mr. Brooks. And is that in part because of your statement 
that this administration is willing to use whatever means are 
necessary of a military nature to prevent Iran from having 
nuclear weapons?
    Secretary Kerry. That is certainly the final backup to it, 
but I believe all of the elements of this agreement will, if it 
is implemented fully--again, if it is implemented--will prevent 
them from even getting near that possibility.
    Mr. Brooks. On occasion you have used the phrase ``all 
options are on the table.'' Do those options to prevent Iran 
from having nuclear weapons include the use of nuclear weapons 
by the United States?
    Secretary Kerry. I have never asked--I have never asked--I 
mean, I know of no President of the United States who have ever 
taken all military options available to them off the table, but 
I also don't know of any realistic situation in which that 
would present a very feasible strategy given the proximity of 
great friends of ours to Iran and the consequences of that. But 
I don't think the President has taken any--there is no option 
that has ever been discussed that has been taken off the table.
    Mr. Brooks. So when you talk about the use of military 
force, is it fair to infer that we are really talking solely 
about conventional weaponry?
    Secretary Kerry. What the President has laid out and what 
the military has designed is an approach--and I am not going to 
discuss that plan in open session here--but a plan that 
sufficiently meets the task of preventing them from having a 
nuclear weapon. That is the goal. That is the objective. And 
our current set of options accomplished that.
    Mr. Brooks. Thank you, Mr. Chairman.
    Chairman Royce. Thank you.
    Joaquin Castro of Texas.
    Mr. Castro. Thank you, Chairman.
    And thank you, gentlemen, for your work and diplomacy on 
behalf of the Nation.
    I want to imagine for a moment another scenario, a scenario 
where we don't take a deal, we walk away from it, and there is 
military action against Iran. Can you imagine for me for a 
moment what would the fallout be from a destabilized Iran? We 
have seen other nations, Libya, Iraq, Egypt, where there have 
been destabilized regimes, secular leaders who have been 
replaced by fundamentalists, and terrorism that has now been 
franchised almost across the world. What would happen if Iran 
was destabilized in the same way?
    Secretary Kerry. You know, Congressman, it is very hard for 
me to get into the speculative game here, and there is too much 
talk about the military option and this and that.
    When we have in front of us a plan that accomplishes the 
task of preventing Iran from achieving a nuclear weapon, which 
they say they don't want to do anyway and have made very strong 
averments about their commitment not to do, it seems that to be 
focused on the destabilized side of it and the military side of 
it is not the right focus. The right focus is on this agreement 
that accomplishes the goal of preventing them from having a 
weapon.
    Now, the region is obviously destabilized and in flames, 
and that is another reason why I think we should think really 
carefully about the consequences of turning away from this 
deal.
    Mr. Castro. And I guess, let me point out, Secretary Kerry, 
so that I am not coy here, I am inclined to support the deal. 
One of the questions I have, though, is I think a concern is 
that we find out that they are cheating, and at that point a 
decision has to be made if we are going to hold true to our 
position, which is we are not going to let them have a nuclear 
weapon.
    Secretary Kerry. But that is, frankly, Congressman, that is 
the easiest decision in the world for this President and for 
all of us here.
    Mr. Castro. But here is my question, Secretary. What is the 
tipping point where sanctions will no longer work and you have 
to take military action if, in fact, you are going to keep them 
from not having that weapon?
    Secretary Kerry. The tipping point is a clarity with 
respect to what effort is being put into breaking out, if that 
is the choice they have made, and where they are in that 
process. The tipping point is how much time you make a judgment 
that you have with respect to where they are starting and where 
they can wind up.
    But we are convinced that with the depth of accountability 
and verification that is built into this agreement, we will 
have enormous tipoff to that. That is why a year was built into 
this agreement for the first 10 years and even after that. 
There is a lengthy enough period of time that our interests, 
the interests of the region, our friends, Israel, others, is 
protected. And we are confident about our ability to have 
accountability in that process going forward.
    But I would say to everybody, if this is rejected, then you 
have no inspections, you don't have a regime in place, you 
don't have the sanctions, Iran may undertake, not immediately, 
but they have certainly indicated they would consider 
themselves free to do so. And as they do it, what are the 
options that are then available to us? It seems to me when you 
compare those two scenarios, this becomes not that complicated 
a choice.
    Mr. Castro. And then my final question is, to put this in 
context, can you go over again--I missed some of the 
discussion--but can you go over again the deal that was offered 
in 2003 by the Bush administration?
    Secretary Kerry. In 2008 is when it was offered.
    Mr. Castro. 2008, I am sorry.
    Secretary Kerry. In 2003 there was discussion. There were 
about 163 centrifuges. But the P5+1, the same P5+1, made an 
offer to Iran for their suspension of enrichment and 
reprocessing that the United States and the P5+1, excuse me, 
would then recognize Iran's right to nuclear energy for 
peaceful purposes, treat Iran's nuclear program in the same 
manner as that of any non-nuclear-weapon state party to the NPT 
once confidence had been built, provide technical and financial 
assistance for peaceful nuclear energy, including state-of-the-
art power reactors, support for R&D and legally binding fuel 
supply guarantees, improve relations with Iran and support Iran 
in playing an important and constructive role in international 
affairs, work with Iran and others in the region on confidence-
building measures and regional security, reaffirmation of the 
obligation to refrain from the threat or use of force, 
cooperation on Afghanistan, steps toward normalization of trade 
and economic relations, and it goes on. All of these things 
were offered in exchange for suspending enrichment and so 
forth.
    Now, they didn't suspend. They went up to 19,000 
centrifuges. And that fact is one of the driving factors in our 
coming to the conclusion, the President coming to the 
conclusion that we needed to arrive at an agreement which 
recognized their ability to have nuclear power under a 
safeguards agreement, under the NPT, with our ability to know 
what they are doing.
    Chairman Royce. Randy Weber of Texas.
    Mr. Weber. Thank you.
    Mr. Kerry, I appreciate you being here. You said that we 
are going to briefed on that side agreement that the IAEA has 
with Iran. Is that correct?
    Secretary Kerry. Yes, that is correct.
    Mr. Weber. Well, I want to implore you to use your power to 
make sure that we are not briefed by the same staff that 
briefed Susan Rice and Hillary Clinton on Benghazi or Sergeant 
Bowe Bergdahl. Okay? Make sure that we get a decent briefing 
there.
    Mr. Kerry, you say frequently that this is the strongest 
negotiation that you could get, you feel like it was. The 
President said he would walk away from a bad deal. And I would 
submit this. Now, you come to us and you say there is not 535 
Secretaries of State and that other countries don't appreciate 
that Congress is weighing in. But if you are going to get a 
strong deal, I have said from the get-go, I think there is a 
lot stronger position you should have taken. So I am going to 
lay out some preclusions, and you tell me if you operated from 
that basis.
    Number one, I agree with Jeff Duncan over here when he said 
American hostages should have been released first and foremost. 
Number two, the demand should have been for Iran to dismantle 
all of its centrifuges. Number three, give the IAEA unfettered 
24/7, 365-day access. Number four, stop the exporting of terror 
to Syria, to Iraq, and everywhere else. Number five, denounce 
terrorism and prosecute those who perpetrate it. Restore civil 
rights in their own country, number six. Stop the death chant 
to America and Israel, and they need to recognize Israel's 
right to exist--even as a Jewish state, I might add. And, 
number seven, Secretary Kerry, they have been a bad actor for 
36 years, going back to 1979.
    So if this is not based on trust, if this is based on 
actions, shouldn't we have required them to show by their own 
actions, I don't know, say for half of the time since 1979, say 
18 years, or a fourth of the time, 9 years, how about just 2 
years, shouldn't we have required them to show with their 
actions?
    You said in your exchange with Grace Meng earlier that Iran 
came to the table with enormous suspicions about the United 
States. And me and my colleague up here are thinking, who 
cares? We are not the bad actors here. They are the ones 
exporting terrorism.
    Did you start from that basis of strength? And then if you 
did, how did we get here, you consider this to be a good deal?
    Secretary Kerry. Well, Congressman, plain and simple, all 
the things that you just listed, there never would have been a 
negotiation.
    Mr. Weber. My heart pains for them. These are bad actors. 
My heart pains for Iran. These are bad actors in the area.
    Secretary Kerry. Congressman, what you need to think about 
is our security. We are better off with Iran not having a 
nuclear weapon.
    Mr. Weber. No question.
    Secretary Kerry. Our primary objective here was to have a 
negotiation, because they were already at 19,000 centrifuges, 
already with enough material for 10 to 12 bombs, already 
enriching at 20 percent, and they were a step away from a 
plutonium reactor that could produce enough material for one to 
two bombs a year.
    Mr. Weber. How long was----
    Secretary Kerry. So we stepped into that----
    Mr. Weber. I get that.
    Secretary Kerry [continuing]. And we have rolled it back.
    Mr. Weber. You said that earlier. How long before we knew 
about Fordow?
    Secretary Kerry. I beg your pardon? We knew about Fordow--
we discovered Fordow. We blew the whistle.
    Mr. Weber. How long was it there before we knew about it?
    Secretary Kerry. I don't know the precise amount of time.
    Mr. Weber. Ten years?
    Secretary Kerry. I know, but, Congressman, we discovered 
that and we also discovered----
    Mr. Weber. I am sorry----
    Secretary Kerry. Let me just tell you. In 2003, we 
discovered that they were actually trying to make a bomb, and 
we did it without inspectors, without this regime.
    Mr. Weber. You have said all that. I get that. But it is 
about the trust that you keep saying that we are going to have.
    Secretary Kerry. No, there is no trust.
    Mr. Weber. Well, you are implying that we can catch them at 
what they are doing, yet Fordow went uncovered for about 10 or 
12 years.
    Secretary Kerry. That is not trust. That is verification.
    Secretary Moniz. We can supply that information----
    Mr. Weber. All right. Let me do this.
    Secretary Moniz. Sir, in a classified environment we will 
be happy to----
    Mr. Weber. We will talk about that. I am running out of 
time.
    Are you aware of the fact that today--today--``Iran to 
United Nations: New Sanctions Could Kill the Nuclear Deal.'' 
They are still uttering threats against us, I may remind us. We 
are not the bad actors here.
    In a letter to a 15-member body, Iran's U.N. envoy, 
Gholamali Khoshroo, said Tehran ``may reconsider its 
commitments'' under the nuclear pact if U.S., European, and 
U.N. sanctions lifted under the deal are ``impaired by 
continued application or the imposition of new sanctions with a 
nature and scope identical or similar to those that were in 
place prior to the implementation date, irrespective of whether 
such new sanctions are introduced on nuclear-related or other 
grounds, unless the issues are remedied within a reasonably 
short time.''
    Today they are threatening to walk away from this deal if 
we implement other sanctions on even other grounds, and you are 
saying the hostages are different?
    The Chairman. We have got to go to Tulsi Gabbard of Hawaii.
    Ms. Gabbard. Thank you, Mr. Chairman.
    With the U.N. Security Council voting unanimously to 
support this nuclear deal with Iran, the toughest global 
sanctions will be dismantled in exchange for Iran's compliance. 
Practically speaking, what is the status of this U.N. 
resolution and the implications if Congress disapproves this 
deal and overrides a Presidential veto?
    Secretary Kerry. Well, Congresswoman, we built into this 
agreement a process that was kind of compromised because our 
friends, our allies, thought they should go immediately to the 
U.N. and implement immediately. But because Congress had 
already voted to have a review period, we persuaded them to 
have a 90-day period during which time it could not be 
implemented.
    So they had their vote, but there is this grace period in 
order to protect the rights of Congress. And that was a balance 
between the desire of our friends to exercise their own 
sovereignty and do what they wanted under the U.N., versus our 
desire to try to protect Congress' right to review.
    Ms. Gabbard. So if Congress does go through the review 
process and disapprove of the deal, at that point what happens 
with the resolution?
    Secretary Kerry. If Congress were to override a veto and 
disapprove the deal there would be no deal.
    Ms. Gabbard. That U.N. resolution that was passed 
unanimously would no longer stand?
    Secretary Kerry. It dies. The entire deal dies because we 
can't lift the sanctions without the ability to waive, and that 
has been taken away, and that would be part of the vote. So we 
would see this deal die.
    Ms. Gabbard. Okay. Thank you.
    Secretary Kerry. Die without any other option, no 
alternative whatsoever.
    Ms. Gabbard. Secretary Moniz, what evidence or materials 
could potentially be cleaned up or hidden within the 24-day 
period listed in the inspections regime?
    Secretary Moniz. Well, there would be an attempt, 
presumably, to replace flooring, do all kinds of cleanup. And, 
as I said, we have experience in both the unclassified and 
classified arenas in terms of being able to detect very, very 
small amounts of uranium. So, using nuclear materials, there 
would typically be a strong signature.
    Ms. Gabbard. And if Iran fails to allow inspectors entry 
within that 24-day period, what consequences would they face 
and under what time line?
    Secretary Kerry. If they fail to do it, they are in 
material breach of the agreement. We can snap back all the 
sanctions. And obviously all options are available to us that 
are available today.
    Ms. Gabbard. So immediately after that 24-day period, if 
they have still not allowed inspection----
    Secretary Kerry. If they fail to live up to the 24-day 
period and provide the access, they are in material breach of 
this agreement. And if we had cause to have gone and asked for 
access to an undisclosed facility about which we have deep 
concerns, everybody will join with us in ratifying that concern 
and we will be operating with the consent, if you will, of the 
international community because of Iran's noncompliance, which 
is one of the reasons why I believe we have huge leverage for 
compliance.
    Ms. Gabbard. And after termination day when the snap-back 
mechanism will no longer apply, Iran will still be subject to 
the Additional Protocol. What are the consequences if they 
violate that Additional Protocol after termination day?
    Secretary Kerry. We still have the power of bringing 
unilateral sanctions. Congress and all of us can join together. 
We can go right back to where we were at square one. Or we have 
obviously other options available to us.
    Ms. Gabbard. I think the concern is that the time that it 
takes for those kinds of unilateral sanctions to apply, whether 
they be from the United States or from the global community, as 
you have seen from the past, what other immediate consequences 
would there be at that point?
    Secretary Kerry. If they are in material noncompliance in a 
way that is threatening, obviously, we are in a much more 
serious kind of situation and confrontation with the potential, 
needless to say, of the President taking the most dramatic 
options.
    Secretary Moniz. I would just add, yes, exactly as Senator 
Kerry said, that it would depend upon their motivation, what 
they were doing. Certainly in my view anything that shows 
movement toward a nuclear weapon would have to be responded to 
quite forcefully.
    I would also add, going back to something Congresswoman 
Meng asked, and I think it is relevant to your statements as 
well, is that the P5 by definition have a special role in the 
NPT and a very, very strong interest in seeing its integrity 
maintained.
    Ms. Gabbard. Thank you.
    Thank you, Mr. Chairman.
    Chairman Royce. Mr. Scott Perry of Pennsylvania.
    Mr. Perry. Thank you, Mr. Chairman.
    Thank you, gentlemen. We certainly appreciate your 
indulgence. We know it has been a long time.
    In the context of these statements is how I would like to 
ask my questions. From 1994--so not too long ago, right, we are 
talk about an 11-, 15-year context of this deal for the most 
strict portions of it--so from 1994:

        ``The entire world will be safer as we slow the spread 
        of nuclear weapons,''

is one statement. And also:

        ``The United States and international inspectors will 
        carefully monitor North Korea to make sure it keeps its 
        commitments.''

And we all know those are, of course, quotes from President 
Clinton.
    None of that happened. I mean, North Korea is what it is, 
and we are where we are.
    In that context, Secretary Kerry, reading your quote 
recently with a reporter from Al Arabiya:

        ``I don't know how to interpret it at this point in 
        time, except to take it at face value,''

in relation to chants of death to America, death to Israel, we 
are going to continue our policy. And then:

        ``It is very disturbing, it is very troubling, and we 
        will have to wait and see.''

What will we have to wait and see, Secretary Kerry?
    And before you answer, 1979, 52 U.S. hostages, 444 days; 
1983, the U.S. Marine barracks, 241 Americans killed; 1992, the 
Israeli Embassy in Argentina bombed; 2011, the attempted 
assassination of the Saudi Ambassador in DC; the killings and 
maimings of hundreds in Iraq and Afghanistan; not to mention 
support of Assad, Hezbollah, Hamas, and activities in Iraq, 
Syria, and Yemen.
    What will we have to wait and see? What was your----
    Secretary Kerry. To see the implementation of the plan, 
Congressman.
    Look, you and I can have a speech-off if you want----
    Mr. Perry. I don't want to have a speech-off. I am just 
trying to understand your comments.
    Secretary Kerry. No, no, no, but I am just saying, we could 
have a competition for who is angrier about some of the things 
Iran has done historically. We understand they have killed 
Americans. We understand what they did in Khobar Towers. We 
understand all of this. But they were marching toward a nuclear 
weapon.
    Mr. Perry. Mr. Secretary, you must understand, I appreciate 
it, this is my time.
    Secretary Kerry. No, no, no, no, let me, Congressman, let 
me----
    Mr. Perry. You must understand the American people see Iran 
as like a crocodile or a shark that does what it does. And we 
are saying: Well, we are going to give the crocodile or the 
shark a few more teeth, and let's see if it does something 
different.
    Secretary Kerry. That is just not accurate. That is not 
accurate in the least.
    Mr. Perry. But that is what we see.
    Let me say this too. You have said that we don't have a 
better option. You keep on saying, well, you haven't provided a 
better option.
    Secretary Kerry. Congressman, we have----
    Mr. Perry. First of all, Mr. Secretary, with all due 
respect, it is not Congress' job. This is the administration. 
And if you would use the treaty process as provided by the 
Constitution, maybe we wouldn't be in this situation.
    Furthermore, you say: Well, this is the only deal we can 
get, that there is no better deal. Congress has a long history 
of instituting better deals. Examples are 200 treaties, 
including 80 multilateral accords modified by Congress, 
including the arms control agreement, SALT II, and the 
Threshold Test Ban Treaty that failed to reach a vote and were 
modified. So there is a history for that of getting a better 
deal.
    And if the Ayatollah doesn't like it and doesn't want to 
negotiate it, oh, boo hoo. We are here for America. We stand 
for America. You represent America.
    With that having been said, in another interview: ``If you 
don't get a majority in Congress to support this deal, doesn't 
that undermine the deal?'' And your statement, it is 
abbreviated: ``They don't care over there''--and I am assuming 
you mean Iraq--``as long as the deal is implemented. And that 
is what we care about, that this deal be implemented.''
    So do you care more about this deal or the U.N.'s approval 
or American sovereignty and the approval of the American people 
through their duly elected representatives, Mr. Secretary?
    Secretary Kerry. Congressman, I don't need any lessons from 
you about who I represent. I have represented and fought for 
our country since I was out of college.
    Mr. Perry. And God bless you for your service.
    Secretary Kerry. So don't give me any lessons about that, 
okay?
    Now, let me just make it crystal clear to you: This is 
America's interest, because America is the principal guarantor 
of security in the region, and particularly with respect to 
some of our closest friends. Now, we believe that Iran was 
marching toward a weapon or the capacity to have a weapon, and 
we have rolled that back, Congressman. That is indisputable.
    Mr. Perry. Okay, that is your opinion, and I understand 
that is your belief.
    Secretary Kerry. No, that is a fact. That is a fact.
    Mr. Perry. Let me ask you this, let me ask you this, Mr. 
Secretary. Is it possible that Iran will acquire Russian air 
defense missiles in relation to the arms embargo lifting to 
protect nuclear sites, possible or not possible?
    Secretary Kerry. Say that again?
    Mr. Perry. Is it possible that Iran will acquire Russian 
air defense missiles to protect nuclear sites?
    Secretary Kerry. Those are not in the agreement. They have 
A300s----
    Mr. Perry. In relation to the arms embargo lifting.
    Secretary Kerry. No, they are not banned by the arms 
embargo. They are outside of it.
    Chairman Royce. We are going to Mr. Brendan Boyle of 
Pennsylvania, and my intention is to keep going to give our 
junior members an opportunity to ask their questions.
    Mr. Boyle. Thank you.
    I actually want to direct my question to Secretary Moniz. 
And I am probably going to be a little boring, here but a very 
technical question that when I ask the White House and the 
President specifically, he directed us to you saying that you 
are one of the top 10 experts in the world on this.
    So with that buildup, there was a report about 6 days ago 
in The New York Times that really questioned this issue of the 
24 days, and there are some, such as you have said earlier, 
that say, look, 24 days, it is not exactly like you are 
flushing a whole program down the toilet, that certainly 
wouldn't be enough time in which to hide illicit behavior.
    The former deputy director of the IAEA contradicted that 
and said that while it is true with some of the larger scale 
operations, some things such as manufacturing uranium 
components, as well as triggers, actually could be covered up 
in the 24 days.
    So I am really trying to get a clear answer on this issue 
because I actually think it is one of the key components when 
trying to look at this in an intellectually honest way to see 
if we really have a verifiable deal here.
    Secretary Moniz. Yes. And I have spoken with Mr. Heinonen, 
of course, he is up the river from MIT, at Harvard these days.
    But the issue I really want to emphasize, what I have 
always said is that work with nuclear materials, we have very, 
very high confidence in terms of finding microscopic amounts 
there. When you go to things like triggers, things that do not 
involve nuclear materials but are important for a nuclear 
explosive, then that gets into a higher stage of requirement, 
as I have said. And in a classified environment we could talk a 
little bit more about it.
    Even there, there can be some signals, some signals that 
are quite interesting and certainly may be quite detectable. 
But certainly one gets farther away from the nuclear materials, 
then there are more possibilities of both coverup and for at 
least maybe semi-credible explanations for pursuing other 
activities. For example, any military does work with 
conventional explosives in chambers, so the question is, was 
that work around certain hemispherical shapes, for example, 
with multipoint detonation, and that requires more and more 
investigation. But nuclear materials leave quite significant 
signatures typically.
    Mr. Boyle. I wanted to, just with only a couple minutes, 
let me switch, because this something that the Israeli 
Ambassador raised in my office and has been raised a couple 
times and, again, I think is a legitimate--I realize that some 
of this is bash the administration and that is part of 
politics, but there are those of us on the Democratic side who 
do have real, genuine concerns. The 24-day is one of them.
    The other is the question of how exactly we bring forward 
and what we have to reveal in terms of our intelligence to 
demand or request that a site is being inspected. It has been 
pointed out that we would have to reveal why exactly we suspect 
a site, meaning we would have to compromise where we got 
intelligence and why we suspect it.
    Can you talk about how that process would work and how much 
we would have to reveal to the Iranians just in order to 
inspect the site?
    Secretary Moniz. Well, that is something that ultimately 
you really should pick up with the intelligence community, 
obviously. And certainly protecting sources and methods is 
particularly important.
    Now, having said that, clearly in the past intelligence 
agencies from many countries have been able to share 
information. And I also note that, of course, four out of the 
seven countries involved in the talks work together quite 
closely, namely the Europeans and the United States, and I 
think we would do all that we could to provide the IAEA with 
relevant information that would point to a suspicious site no 
matter where it was.
    But clearly, again, in terms of sources and methods, I 
think you have to go to the intelligence----
    Mr. Boyle. Could I ask Secretary Kerry to weigh in on that 
point?
    Secretary Kerry. Yeah, Congressman, I have been through 
this kind of thing a little bit on occasion, and we are very 
careful not to disclose sources and methods, and we have ways 
of providing information and making it available in ways that 
don't compromise that. I can assure you that will not happen. 
It is not something that our community feels prevented or 
stopped by.
    But let me just point out, because you mentioned the 
Israeli Ambassador was in there talking to you about these 
concerns, Sandy Levin is the longest serving Jewish Member of 
the United States Congress, and he came out today in favor.
    Mr. Boyle. I read his statement.
    Secretary Kerry. He was asked about it and he said:

        ``Israel's security has and always will be of critical 
        importance to me and our country. I believe that 
        Israel, the region, and the world are far more secure 
        if Iran does not move toward the possession of a 
        nuclear weapon. I believe the agreement is the best way 
        to achieve that.''

    Chairman Royce. We are going to Mr. Ron DeSantis of 
Florida. There is a vote on. There are 2 minutes remaining.
    Mr. DeSantis. Secretary Moniz, with respect to the 
agreement between Iran and the IAEA for Parchin and a possible 
military dimension, have you read those documents or 
agreements?
    Secretary Moniz. No, sir, I have not seen them.
    Mr. DeSantis. Okay. And to your knowledge, nobody in the 
U.S. Government has a copy of the agreements?
    Secretary Moniz. To my knowledge, we do not have a copy. 
Again, in Vienna we had very broad oral--I had at least a broad 
oral briefing, but I never saw any paper.
    Mr. DeSantis. So you were briefed in Vienna before the 
JCPOA was announced?
    Secretary Kerry. Yes.
    Secretary Moniz. Shortly before, yes.
    Mr. DeSantis. Who briefed you?
    Secretary Moniz. DG Amano.
    Mr. DeSantis. Okay. And do you have any plans to request 
that those documents be provided to Congress consistent with 
the Iran Nuclear Review Act?
    Secretary Kerry. I don't know if it is consistent, so I 
will check with our folks and make a determination. I don't 
think we judge that it is consistent, but as we have said, we 
will certainly brief the contents in an appropriate classified 
session.
    Mr. DeSantis. Well, if you don't, if you could provide us 
the rationale for why you don't think the definition of 
agreement would encompass----
    Secretary Kerry. Well, I said I don't know. Congressman, I 
just said I don't know.
    Mr. DeSantis. No, I know. But I am saying, if you would 
make that determination, if you could provide us the kind of 
the legal justification so that we can look at it.
    Secretary Kerry. Well, of course we would have to, of 
course we would do that.
    Mr. DeSantis. Okay. Very good.
    There was a report on the Associated Press today that the 
agreement between Iran and the IAEA may not even be completed. 
There was something about maybe Iran would be the one to take 
the soil samples. Can you guys comment? Is it, in fact, still 
being negotiated between Iran and the IAEA?
    Secretary Kerry. We can't, in session here, we can't 
discuss what the methodology is. We will be happy to take this 
on in classified session.
    Mr. DeSantis. Can you confirm the AP story? Have you seen 
it?
    Secretary Kerry. Absolutely not. I can't.
    Mr. DeSantis. You cannot in open session?
    Secretary Kerry. I cannot confirm it.
    Mr. DeSantis. Okay.
    Secretary Kerry. I haven't seen it, among other things.
    Mr. DeSantis. Secretary Moniz, obviously it is a very 
complex agreement. We get into a lot of different things. 
Obviously very important, and I know you guys worked hard on 
it. But sometimes I would just like to take a step back, and 
just a few years ago it had been pretty much the general policy 
of the United States that an agreement would be simply Iran 
gives up its nuclear program, no enrichment. The U.N. had 
always said no enrichment. The President, when he was debating 
Governor Romney in 2012, said: ``The deal we will accept is 
that they end their nuclear program. It is very 
straightforward.''
    Secretary Moniz, do you acknowledge that this agreement--I 
know you guys think it is good, and let's put that aside--but 
do you acknowledge that this agreement doesn't meet that 
standard of where they are ending their nuclear program, that 
they are allowed to maintain a significant nuclear program? The 
international community is going to be helping them develop 
nuclear technology? I know you guys are going to say that you 
are confident you will be able to detect if that is used in a 
military capacity. But that does represent a change, does it 
not, from where we were just a few years ago?
    Secretary Kerry. Congressman, I have had conversations with 
members of the prior administration, and I am not going to--it 
is inappropriate for me to tell you who or speak for them. But 
I think if you talk to them, you will learn that they had come 
to a conclusion by the end of that administration that that 
policy wasn't working and that they were going to need to, in 
fact, have some structure of enrichment and some structure of a 
program.
    There is a distinction here between Iran's nuclear weapons 
capacity and a peaceful nuclear program. Unlike North Korea, 
which pulled out of the NPT, Iran is still a signatory to the 
NPT. Iran has not exploded an ordnance. Iran has not yet gone 
forward to make a weapon, even though they had enough material 
for 10 to 12 bombs.
    So Iran is stating in this agreement its willingness to 
comply with and live within the Nonproliferation Treaty. Under 
the Nonproliferation Treaty, countries have a right to a 
peaceful nuclear program.
    Mr. DeSantis. Just so I get clear with the question, you 
are acknowledging that there has been a reappraisal in kind of 
the goal posts, and it is one that has been shared by both 
people in the Bush administration and the Obama administration?
    Secretary Kerry. Well, I don't think they shared it 
publicly, but they shared it with us privately, and it is----
    Secretary Moniz. May I just add that the construct going in 
then, and this was among the P5+1, that our basic construct 
would be to get the 1-year breakout time to fissile material.
    Mr. DeSantis. I am almost out of time. Secretary Kerry, 
just real quickly, because this is not going to be ratified as 
a treaty, there are a lot of States, and Florida particularly, 
where State legislatures have enacted sanctions against Iran in 
various capacities. Do you acknowledge that this deal will not 
affect states' ability to do it since it is not going to be 
approved as a treaty, it is not going to be considered the 
supreme law of the land, it will be more of an Executive-to-an-
Executive agreement?
    Secretary Kerry. That is accurate, but we would urge those 
States, if Iran is fully complying with this agreement, we will 
take steps to urge them not to interfere with that.
    Chairman Royce. Mr. Ted Yoho of Florida. And don't feel 
compelled to use all your time.
    Mr. Yoho. Yes, sir, I understand. I appreciate it.
    I appreciate you all being here.
    Mr. Secretary, I want to ask you a simple yes-or-no 
question. The Iran Sanctions Act expires on December 31, 2016. 
Will this administration support legislation simply extending 
the Iran Sanctions Act so that the nuclear-related sanctions it 
provides for can be snapped back if Iran is caught cheating?
    Secretary Kerry. Yeah----
    Mr. Yoho. It is a yes-or-no.
    Secretary Kerry. Well, we obviously are committed to the 
ISA, but I don't think any decision has been made on timing or 
what steps the President will take with respect----
    Mr. Yoho. Well, can we do the snap-backs without this?
    Secretary Kerry. Yes, we can.
    Mr. Yoho. According to this, we can't because the Iran 
Sanctions Act expires, and those are necessary to have the 
snap-backs.
    Secretary Lew. No, we have other existing authorities where 
we could snap back both financial and----
    Mr. Yoho. Can you guarantee this body that those acts or 
facilities are going to be in place so that snap-back does work 
without an act of Congress?
    Secretary Kerry. Yes.
    Mr. Yoho. And I have a problem with the secret deals that 
are going on, and you are asking us to support this deal 
without being able to read it. It kind of reminds me of the 
healthcare law. I don't want to be in that situation. You are 
asking us to vote on something. We don't know what is in that 
deal. And I think it is very disingenuous to ask us as Members 
of the--Representatives of United States' citizens to vote on a 
deal without knowing what is in it.
    Secretary Kerry. Well, we are not. I have said to three or 
four Congressmen that they will be briefed.
    Mr. Yoho. I heard that. But it is not clear that the 
information is going to be forthright. We are going to get 
briefings, but briefings is not the same as being able to read 
the actual agreement. And I realize it is the IAEA with Iran, 
but, you know, we are paying 25 percent of the budget of that 
place, I think we as the representatives of the American 
people, we deserve that, and I wouldn't support this without 
that.
    Secretary Lew. Congressman, on the Iran Sanctions Act, can 
I just add two things? First, it doesn't expire until the end 
of 2016, and now would not be the appropriate time, it is 
premature to take action. And I think, respectfully, we know 
that if there is a problem in 2016, it won't take very long for 
Congress to act.
    Mr. Yoho. You say it is premature to take action, and this 
will be my last question, or statement, I think. You say this 
is the best deal we get, and if we walk away from the table, we 
walk away alone. I feel that you, this negotiating team, put 
America in that situation because of the way you negotiated 
this from the very beginning.
    If we go back to the very beginning, Iran will not be 
allowed to have a nuclear weapon. And, you said, Mr. Secretary, 
I heard it come out of your mouth, anywhere, anytime, anyplace. 
That has been passed on. We are beyond that point. And it is 
beyond the point of trying to prevent Iran from having a 
nuclear weapon. We are trying to prevent something that we 
can't, instead of preparing for that which we will have.
    And we have been boxed into a bad corner because you guys 
negotiated from weakness instead of as the superpower, and you 
go into the U.N. to get their approval first so that we look 
like the bad guys. This is a bad deal, and I think if we 
operate from a level of strength Iran will come back to the 
negotiating table. To think that they are going to come back to 
the negotiating table a year or 2 from now, I think that is a 
fallacy, and I think it is disingenuous to America.
    Secretary Kerry. So, Congressman, I urge you, I urge you, 
Congressman, with all respect, to spend time with the intel 
community. I think you will hear a very different judgment from 
them about----
    Mr. Yoho. No disrespect, but we get those people in here 
all the time. We sit in intelligence briefings and we hear from 
them.
    Secretary Kerry. And secondly----
    Mr. Yoho. And they are telling us this is a bad deal. And 
if you say and President Obama says this is going to make 
America safer----
    Secretary Kerry. Congressman, the intelligence community--
--
    Mr. Yoho. Wait a minute. And the Middle East safer, but yet 
the intelligence community is telling us to build missile 
defense systems on the East Coast, bolster the ones on the West 
Coast and Alaska, because this is a great deal? I think we 
should run away.
    I am going to yield back. Thank you.
    Secretary Kerry. The intelligence community is not saying 
this is a bad deal. The intelligence community supports this 
deal, Congressman. And what is more, they were an integral part 
of helping to shape it.
    And furthermore, the reason we are able to get the good 
deal we got is because we did operate out of a position of 
strength, which is why they are dismantling two-thirds of their 
program, undoing their stockpile, living by restraints on their 
enrichment, and have accepted the Additional Protocol, as well 
as 25-year restraints on their uranium and so forth.
    Chairman Royce. So we will go to Mr. Reid Ribble of 
Wisconsin.
    Secretary Moniz. Just to add, Mr. Congressman, that the 
agreement is that IAEA and Iran, the IAEA will complete its 
PMD. That is the agreement. That is the protocol.
    Chairman Royce. Mr. Ribble.
    Mr. Ribble. Thank you.
    Secretary Kerry, earlier in the hearing today you said that 
countries in the future, if the Congress rejects the deal, 
countries in the future will not trust negotiating with the 
U.S. State Department because they are now negotiating with 535 
individual Members of Congress. For 228 years the Constitution 
provided a way out of that mess by allowing treaties to be with 
the advise and consent of 67 U.S. Senators. Why is this not 
considered a treaty?
    Secretary Kerry. Well, Congressman, I spent quite a few 
years trying to get a lot of treaties through the United States 
Senate, and, frankly, it has become physically impossible. That 
is why. Because you can't pass a treaty anymore. It has become 
impossible to, you know, schedule. It has become impossible to 
pass. And I sat there leading the charge on the Disabilities 
Treaty, which fell to basically ideology and politics. So I 
think that is the reason why.
    Mr. Ribble. Yeah, okay. I may not disagree with that. I 
mean, the political world around here is pretty challenging for 
both political parties and certainly for the Congress and the 
President.
    I would say this, that one of the concerns that has been 
voiced to me by my constituents is the fact that in the 
President's press conference about this agreement he threatened 
to veto the Congress' action if we didn't agree with him 
anyway. And so there was this arbitrary poke in the nose of the 
Congress when it was unnecessary. So my folks back home are 
saying: I want to have some say in this and my only say is 
through you. So I think that maybe could have been handled a 
little bit different.
    Secretary Moniz----
    Secretary Kerry. I understand.
    Mr. Ribble. Go ahead, Secretary.
    Secretary Kerry. No, I understand.
    Mr. Ribble. Yeah, okay.
    Secretary Moniz, is it not billions of dollars cheaper to 
build a natural gas power plant rather than a nuclear power 
plant? Why do you suppose the Iranians have gone down the 
nuclear road when they are so carbon rich? I mean, they have 
got a trillion gallons of reserves in natural gas. Wouldn't it 
have been much cheaper for them, if the idea was just peaceful 
electricity, to have gone that route?
    Secretary Moniz. Well, a natural gas power plant has lower 
capital cost, but typically a nuclear plant has lower operating 
costs. That is one point.
    Mr. Ribble. But in this case the natural gas would be free 
to them. It is their primary energy source.
    Secretary Moniz. I am not sure it is free. Certainly in the 
sense--again, I am not arguing one way or the other, but just 
what the argument is, is that it is more valuable than as an 
export product, where, of course, with LNG prices for example, 
in parts of the world, there is quite a bit of rent to be 
captured.
    Mr. Ribble. Yeah, sure.
    Secretary Lew, I appreciate your patience today. You 
haven't been called on that much. But in light of how 
penalizing the economic sanctions have been on this economy it 
still strikes me odd that Iran would continue to move toward 
this very, very expensive construction project as opposed to 
other alternatives. Does this seem odd to you? I mean, it is 
billions and billions of dollars to build a nuclear power 
plant.
    Secretary Lew. Which expense?
    Mr. Ribble. The expense of actually constructing nuclear 
power plants. They have been under great stress economically.
    Secretary Lew. I think that they have been under enormous 
stress. Like any government, they make decisions based on their 
short and their long-term needs. I can't question why they have 
chosen one form of a power plant over another.
    What I do know is their infrastructure, including their 
power infrastructure, is highly inadequate. In order to have a 
foundation for economic growth they do need more power, and 
that is going to require investment. It is one of the reasons 
that I believe they have domestic needs that far exceed any 
relief they are going to get. Their domestic infrastructure is 
in a pretty bad condition right now.
    Mr. Ribble. Well, it seemed to me that one of the possible 
solutions of this whole deal would have been for the P5+1 
countries to assist them in building alternative sources of 
electrical power to meet that need as opposed to setting this 
canard up where now in 15 years if they choose they can go 
ahead and nuclearize from a weaponry standpoint.
    And with that, I will go ahead and yield back.
    Chairman Royce. Thank you.
    Mr. Trott and Mr. Zeldin, if you can keep these comments 
brief, there are votes going on the floor.
    Mr. Trott.
    Mr. Trott. Thank you, Mr. Chairman.
    I want to thank the witnesses for being here and for your 
service.
    Secretary Kerry, you said in your opening statement that 
there have been major distortions, and President Obama actually 
said yesterday that there have been no factual arguments on the 
other side that are worth scrutiny.
    So a simple yes or no. These the facts that we are basing 
the negotiations off of at the outset: They are holding 
American hostages, they are sponsoring terrorism, calling for 
death to America, want Israel wiped from the face of the Earth, 
guilty of egregious human rights violations, and generally 
creating instability around the world. Are those facts true, 
yes or no?
    Secretary Kerry. Yeah, they are. But----
    Mr. Trott. So would you say those facts looked at 
collectively would suggest that Iran is guilty of bad behavior?
    Secretary Kerry. Well, I think it is more than just bad 
behavior. Destabilizing countries and blowing people up 
somewhere is beyond bad behavior.
    Mr. Trott. I will take that as a yes.
    So how would a deal, let's say I wanted to sell my business 
to Lee. Back when I was in the business world, we were doing an 
acquisition, I would say to my team: You can't do a good deal 
with a bad guy. So can you sort of understand our concern about 
this deal? Because it sure looks like, if you are doing a good 
deal as you suggest, it is with a bad guy.
    Secretary Kerry. I understand exactly what you are saying. 
We confronted questions about what could be achieved or not 
achieved in the course of these negotiations ourselves and came 
to the conclusion, therefore, that nothing is based on trust, 
that we are going to set up something that you can read, we can 
read, that everybody can understand what the expectations are.
    And that is one of the reasons why, from a position of 
strength, we believe we achieved something that really helps 
establish some level of confidence over the years, and that is 
the level to which they will reduce their current program, 
reduce their stockpile, live by limitations on enrichment, 
which are absolutely ascertainable, and so forth.
    So we have created, we think, a dynamic here where you get 
over the hurdle of the things you don't like and are bad 
behavior because you have created something that is verifiable 
and has certainty in it.
    Mr. Trott. Is there any chance that Iran's strategy is to 
get the deal signed, get the $50 billion, and then a year or so 
down the road start to violate the agreement, knowing that----
    Secretary Kerry. That is what was said earlier.
    Mr. Trott. Yeah. And I know that is the challenge of going 
last or next to last, but I appreciate you staying. But isn't 
there a chance that a year from now it is going to be a whole 
lot more difficult for us to get the band back together and be 
able to put in place some of the protections that led to----
    Secretary Kerry. Not if they are breaking the agreement.
    Mr. Trott. So Russia and China are just going to go along 
and say: Gosh, United States, we understand your concern, and 
what can we do to get back in----
    Secretary Kerry. We are convinced about the seriousness of 
purpose of all of our five other partners in this effort.
    Mr. Trott. Hindsight is 20/20, and I am not asking you to 
necessarily evaluate how we got to this point. But is there any 
credibility to the concern that I think someone earlier 
mentioned that maybe decisions by Ambassador Rice or the 
administration or your negotiating team really put us in a 
position now where if we don't sign this deal we are really 
left without any good options? Any concern in hindsight we 
could have done things a little differently, maybe U.N. 
Resolution 1929, other decisions that were made along the way, 
that put us in this box in terms of having no great options?
    Secretary Kerry. Well, we think we have a great option. The 
great option is the agreement that we came to. And we did not 
create the box, by the way. You know, you guys decided you 
wanted to review it, and now you are reviewing it. And I am 
sorry about the consequences of that review, but that is not 
our creation. The consequences of the review are the reality 
that this agreement cannot go forward, and there are 
consequences to that.
    Mr. Trott. I have no regrets, sir, about having the 
responsibility of reviewing this agreement.
    Secretary Kerry. No, and I am not arguing with you about 
your right to do it. But we are arguing that the consequences, 
when you weigh the benefit of this agreement going through 
versus the consequence of not doing it, are serious.
    Mr. Trott. One last question, sir, and I appreciate your 
time. You said earlier this was never about making sure Iran 
did not have a nuclear program but rather about making sure 
they did not have a nuclear weapon.
    Secretary Kerry. The capacity to build a nuclear weapon or 
to get one.
    Mr. Trott. So what did candidate Obama mean in the debate 
with Mitt Romney in 2012 when he said: ``The deal we will 
accept is they end their nuclear program. It is very 
straightforward.'' So he really was just talking about the 
capacity to create a nuclear weapon, not having a nuclear 
program?
    Secretary Kerry. Yeah, having played Mitt Romney for him in 
preparation for that debate, I can assure you that is what he 
meant.
    Mr. Trott. Thank you for your time again, sir. I hope you 
are doing all right on your crutches. I spent a lot of time 
over the years on crutches. They are not any fun. Thank you, 
sir.
    Secretary Kerry. Thank you very much.
    Chairman Royce. Mr. Lee Zeldin of New York.
    Mr. Zeldin. Thank you, Mr. Chairman.
    Mr. Kerry, just now in response to Mr. Ribble's question, I 
just want to understand, with regards to a treaty, you said 
this isn't a treaty because it was difficult to pass. Is that 
correct?
    Secretary Kerry. No. There are a lot of other reasons. We 
don't have diplomatic relations with Iran. It is very 
complicated with six other countries. It is just a very 
complicated process. So we thought that the easiest way to get 
something that had the leverage, had the accountability, could 
achieve our goal, was through a political agreement, and that 
is what we have.
    Mr. Zeldin. And, Mr. Secretary, if you would be able to 
submit for the record just a little more background as to why 
this is not treated as a treaty, I think it would be helpful 
for us.
    Secretary Kerry. Absolutely. Sure. Be happy to do it.
    Mr. Zeldin. Okay. And you said a little bit earlier the 
reason why Iran came to the table is because they wanted the 
relief from the sanctions. The Iranian Supreme Leader said:

        ``The Islamic Republic of Iran will not give up support 
        of its friends in the region, the oppressed people of 
        Palestine, of Yemen, the Syrian and Iraqi Governments, 
        the oppressed people of Bahrain, and sincere resistance 
        fighters in Lebanon and Palestine.''

There is so much state sponsorship of terror in that list, Mr. 
Secretary.
    The Hezbollah leader, Hassan Nasrallah, said this past 
weekend: ``The United States remains the 'Great Satan,' both 
before and after the nuclear accord.''
    The leverage, as you said, that brought the Iranians to the 
negotiating table was the sanctions relief. Let me just recap 
some of the stuff that wasn't even part of the negotiations: 
Iran developing ICBMs, overthrowing foreign governments, 
sponsoring terror, they are unjustly imprisoning United States 
citizens, including a marine and a pastor, a reporter, pledging 
to wipe Israel off the map, chanting death to America. None of 
that was even part of the negotiations.
    Iran's neighbors, who know them the best, trust them the 
least. It is just something for us to think about.
    I would also ask if you can submit for the record, just for 
the sake of time, a little bit more in the plan as for stopping 
all the other Iranian terror that wasn't part of the deal. I 
think it would be very helpful for Congress to have a better 
sense of what the plan is regarding everything that wasn't part 
of the deal.
    And, Mr. Secretary, if we remove the sanctions, we are 
removing the leverage that brought the Iranians to the table. 
Over 70 years ago, a leader of the free world held up a 
document, declared it ``peace for our time.'' I am afraid that 
many years from now if the American people, through their 
representatives in Congress, accept this bad deal, that just 
like the Munich Agreement of 1938, this Iranian agreement will 
prove to not be in the best interests of American security or 
the stability and safety of the free world.
    There is an alternative other than war. It is a better 
deal. Now, you said getting a better deal is Fantasyland. Some 
other stuff that I would consider Fantasyland is believing that 
you have access to military sites when the Iranian leadership 
tells us that we don't. Fantasyland is agreeing to a three-
member advisory board where one of the members is declared an 
independent member, but there is no details in the agreement 
whatsoever as to how that independent member is selected. 
Fantasyland is saying that there is no secret deal with Iran 
and the IAEA even though we are acknowledging that there is an 
agreement and that it is secret. Fantasyland is saying that 
this deal provides 24/7 where necessary, when necessary 
inspections, which don't, in fact, exist. A Fantasyland is 
saying that Iran does not want to destroy the United States, 
dismissing their death to America pledge as just rhetoric.
    I don't believe that this is a great option, as you just 
said to the last person. I know it, the American public knows 
it, that there is an alternative other than war and it is a 
better deal. America got played like a five-string quartet.
    Mr. Secretary, a lot of Americans have fought and died to 
make our country the greatest Nation in the world. And you, 
sir, respectfully, you don't have the power to surrender our 
greatness.
    And I would strongly, with all these hypotheticals, that if 
Congress rejects this deal, that everything falls apart, you 
have not yet answered what you would do next. What would you 
three Secretaries do if Congress rejects the deal? Because the 
answer on the next day is no one shows up to work. No one is 
working with the international community to try to protect 
America and the free world. So if Congress rejects this deal, 
when you wake up the next morning, sir, what would you do?
    Secretary Kerry. Well, Congressman, you threw a lot out 
there all at once.
    All of us take affront at the comments that are made 
publicly by many people in Iran, whether it is a general or a 
leader of one kind or another or the Ayatollah's comments.
    What is important is what Iran does, not what it says, what 
it does. For 2 years now, Iran lived by a deal that many of 
your colleagues here called an historic mistake, but they lived 
by it. They have actually rolled their program back. And 
President Obama is the first President in the United States who 
has challenged this issue, who has actually rolled the Iranian 
program back significantly and stopped them from the path to 
get a weapon.
    Now, we have laid out----
    Mr. Zeldin. Mr. Secretary, with all due respect, for the 
sake of time----
    Secretary Kerry. No, with all due respect, I think----
    Mr. Zeldin [continuing]. I am just asking what you would do 
the next morning, you have not answered the question of what 
the administration would do.
    Secretary Kerry. I am coming to that.
    Chairman Royce. Mr. Zeldin, there is a vote on and your 
time has expired.
    Mr. Zeldin. Thank you, Mr. Chairman.
    If you could submit that for the record, I think it is 
important for Congress to know what you would do next.
    Secretary Kerry. Sure.
    Chairman Royce. I want to thank our witnesses for being 
with us today. These are not easy issues. Congress will be 
taking a historical vote on this agreement in September. The 
committee will continue doing its job before that vote and 
after. And I thank each of our witnesses again for being with 
us today and staying through the process of having all of the 
members ask their questions.
    We stand adjourned.
    [Whereupon, at 2:01 p.m., the committee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

         
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
